                                                                      U.S. Depzrtment of Ifomeland Security
                                                                      3003 Chamblee-Tucker Road
                                                                      Atlanta, Georgia 30341




                                     August 9,2005


MEMORANDUM FOR:               Mary Lynne Miller


FROM:                         Gary J. Barard
                              Field Office Director

SUBJECT:                      Audit of the State of Florida
                              Administration of Disaster Assistance Funds
                              Audit Report No. DA-25-05


Attached for your review and follow-up are five copies of the subject audit report that was prepared
by an independent accounting firm, Leon Snead & Company under contract with the Office of
Inspector General. In summary, Leon Snead & Company determined that the Florida Division of
Emergency Management (grantee) should improve certain financial and program management
procedures associated with the administration of disaster assistance funds.

On April 18,2005 your office responded to the draft report. Based upon your response, Findings
B.l, B.2 and B.3 are closed and require no additional action. Finding A. 1 is resolved, but require an
additional response describing actions taken to implement the recommendations. In addition, your
response did not fully address the recommendations in Finding A.2. Therefore, this finding remains
unresolved pending an additional response from the Region.

Please advise the Atlanta Field Office-Audit Division by September 8,2005, of actions taken.
Should you have any questions, please contact George Peoples or me at (770) 220-5242.

Attachments
                                                                                                   Certified Public Accountaxts
LEON SNEAD                                                                                         &- Management Coirsultants
& COMPANY, PC,
416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-8210
leonsnead.cornpanypc@erols.com                                      August 1,2005


               Department of Homeland Security
               Office of Inspector General
               Washington, DC 20472

               Leon Snead & Company, P.C. conducted an audit of the Florida Department of Community
               Affairs, Division of Emergency Management (Grantee), to assess its compliance with the
               Robert T. Stafford Disaster Relief and Emergency Assistance Act (as amended) and
               applicable Federal regulations. The audit was conducted at the request of the Department of
               Homeland Security, Office of Inspector General.

               The audit objectives were to determine if the Grantee administered the grant programs in
               accordance with Federal regulations, and accounted for, reported and used Federal
               Emergency Management Agency (FEMA) program hnds properly. We found that the
               Grantee needed to improve its procedures for: (1) reporting total disaster costs, (2) managing
               obligations and expenditures for State Management Grants, (3) making payments to sub-
               grantees, and (4) monitoring projects and project closeouts.

               The audit was performed under the authority of the Inspector General Act of 1978, as
               amended, and in accordance with generally accepted government auditing standards, the
               Office of Inspector General audit guide and 44 CFR. Although the audit report provides
               certain financial related information and comments, we did not perform a financial statement
               audit the purpose of which would be to render an opinion on the financial statements. The
               scope of the audit consisted of program and financial activities for 51 Presidential declared
               disasters, fire suppressants, and emergency declarations open as of September 30,2002. We
               reviewed 1,481 Public Assistance, Hazard Mitigation, and Individual and Family Grant
               Program projects or applicants with cost totaling over $443 million.

               An exit conference was held to discuss the findings and recommendations included in the
               report with officials from FEMA Region N on February 9, 2005, and the Grantee on
               February 10,2005. We have included the written comments from Region IV and the Grantee
               in Exhibit B.

                Leon Snead & Company, P.C. appreciates the cooperation and assistance received during the
                audit from both FEMA and Grantee personnel.

                                                                      Sincerely,
     FEMA                                                                           Florida Division of Emergency Management
                                                                                                                State of Florida




                                                  TABLE OF CONTENTS

                                                                                                                                   Page

     1.     Executive Summary ......................................................................................................1 


     11.    Introduction ...................................................................................................................
                                                                                                                                       3

     I11.   Objectives. Scope and Methodology ..........................................................................3 


     IV .   Findings and Recommendations ...................................................................................
                                                                                                                       7

            A.         Program Management .......................................................................................
                                                                                                                            7

                       1. Payments to Sub-grantees...........................................................................  7
                       2 . Project Monitoring ....................................................................................
                                                                                                                              11

            B.        Financial Management .....................................................................................
                                                                                                                            16

                       1. Reporting Non-Federal Cost Share of Program Cost ...............................16 

                       2 . Controls Over Drawdowns .......................................................................
                                                                                                                       17
                       3 . Improper Use of State Management Grant Funds ....................................            19 


     V.     Exhibits .......................................................................................................................2 1 


            A.                      Schedule of Source and Application of
                                    Funds as of September 30. 2002
                                    Overall Funds (by Program type of Grant) .........................................22 


            A-1-A-5 1.              Schedule of Source and Application of Funds
                                     as of September 30. 2002. by Disaster ...................................... .....23 
          ..
                                    Management Comments.....................................................................
                                                                                                                         74




     Leon Snead & Company. PaC         .                              1




                                                                                                                                 ....
                                                                                                                                  -
--                                                                                       .....                    ..

                      .                                                                                                        -..-.
                                                                                                                                   ..
                                                                                                                                    .     ..

            ...
FEMA                                                    Florida Division of Emergency Management
                                                                                    State of Florida


                             I. EXECUTIVE SUMMARY
Leon Snead & Company, P.C. has completed an audit of the administration of disaster
assistance grant programs by the Florida Department of Community Affairs, Division of
Emergency Management (Grantee). The audit objectives were to determine if the Grantee
administered FEMA grant programs according to Federal regulations, and accounted for,
reported and used program funds properly. This report focuses on the Grantee's systems and
procedures for assuring that grant funds were managed, controlled, and expended in
accordance with the Robert T. Stafford Disaster Relief and Emergency Assistance Act (as
amended) and applicable Federal regulations.

Our audit concentrated on 12 of the disaster, fire suppressant, and emergency declarations that
were open as of September 30, 2002. The 12 declarations incurred total obligations of over
$2.6 billion. The Federal share of the total funds obligated was $2.0 billion, and the amount of
funds expended for these disasters was $1.8 billion. We reviewed 1,481 Public Assistance,
Hazard Mitigation, and Individual and Family Grant Program projects or applicants, with costs
totaling over $443 million which was about 17 percent of total obligations for the 12
declarations. Audit fieldwork was completed on July 17,2003.

Our findings regarding both financial and program management are summarized below, and
discussed in detail in the Findings and Recommendations section of this report. Except for the
findings contained in this audit report, nothing came to our attention during the audit that
questioned the accuracy of information contained in the financial reports submitted to FEMA.

Program Management

       Management controls over public assistance projects by the Grantee need
       strengthening to ensure that payments to sub-grantees are made in accordance with
       Federal regulations. We identified premature payments to sub-grantees for large
       projects. In addition, funding for small projects was not disbursed to sub-grantees for
       up to 498 days after Federal approval.

       Improved controls over HM buy-out projects were needed to ensure compliance with
       Federal regulations, and the Grantee reimbursed sub-grantees about $598,000 of costs
       for unapproved property acquisitions. Projects were not closed timely and sub-grantee
       appeals were not answered adequately,

Financial Management

        The Financial Status reports (SF 269) as of September 30, 2002, under-stated the non-
        Federal share of disaster costs by $60,710,090. This was caused by the Grantee not
        accounting for or reporting funds provided by local entities completing the projects.

        Funds obligated for Public Assistance and Hazard Mitigation projects were disbursed
        for state management grant activities. As a result, the outlays for state management

Leon Snead & Company, P.C.                      I
FEMA                                                  Florida Division of Emergency Management
                                                                                  State of Florida


       grant activities exceeded FEMA's obligations for state management grant activities by
       $2 million.

       Better management controls were needed to ensure grant funds were expended for
       their intended purposes. We found that about $595,000 was expended for items not
       approved by FEMA.




Leon Snead & Company, P.C.                    2
FEMA                                                   Florida Division of Emergency Management
                                                                                   State of Florida


                                11. INTRODUCTION
FLORIDA DIVISION OF EMERGENCY MANAGEMENT

The Florida Division of Emergency Management is a division of the Florida Department of
Community Affairs. The Division was authorized under the State Disaster Preparedness Act
of 1974, as amended by State Law of 1984, Section 2 of Chapter 84-241. Its mission is to
ensure that Florida is prepared to respond to emergencies, recover from the disasters, and
mitigate against their impact.

The Director of the Division is appointed by and reports directly to the Secretary, Department
of Community Affairs. As of July 17, 2003, the Division had 65 permanent and temporary
employees assigned to the three FEMA programs reviewed during the audit. The Division is
responsible to FER/LA for the disaster grants received.

Our audit concentrated on the Public Assistance, Hazard Mitigation, and Individual and
Family Grant Programs. The permanent and temporary operations support employees
managed these programs on a daily basis. Grantee employees assigned to other operational
areas assisted in carrying out the functions during disasters, if needed. The Individual and
Family Grant Program was controlled by the Florida Department of Children and Family
Services under an Interagency Agreement with the Grantee. The Office of Finance and
Accounting, another division of the Florida Department of Community Affairs processed
financial transactions for the programs. The Office of Finance and Accounting was also
responsible for preparing and forwarding all financial reports to FEMA Region IV.

THE DISASTER ASSISTANCE PROGRAMS

The Robert T. Stafford Disaster Relief and Emergency Assistance Act (as amended) governs
disasters declared by the President. Following a major disaster declaration, the Act authorizes
FEMA to provide various forms of disaster relief to the State, as the grantee, and to State
agencies, local governments, and eligible private-nonprofit organizations as sub-grantees. The
Code of Federal Regulations (44 CFR) provides further guidance on the requirements for and
administration of disaster relief grants. On October 30,2000, the President signed the Stafford
Act amendments into law (Public Law 106-390). The amendments are effective only for
disasters declared after October 2000.

Public Assistance Grants

FEMA awards Public Assistance Grants for the repairlreplacement of facilities, removal of
debris, and emergency protective measures necessary as a result of a disaster. To receive a
Public Assistance Grant, a designated representative of the organization must sign a Notice of
Interest. After the applicant completes the Notice of Interest, FEMA schedules an inspection
of the damaged facilities. The inspection team consists of FEMA, State, and local officials.
The inspection team prepares Project Worksheets (formerly called Damage Survey Reports)
identieing the eligible scope of work and estimated cost for the project. The Project

Leon Snead C Company, P.C.                     3
FEMA                                                     Florida Division of Emergency Management
                                                                                     State of Florida


Worksheets are sent to FEh4A for review and approval. FEMA9sapproval serves as the basis
for obligating Public Assistance Grant funds.

Hazard Mitigation Grants

FEMA awards Hazard Mitigation Grants to States to help reduce the potential of future
damage to facilities. The State must submit a letter of intent to participate in the program, and
sub-grantees must submit a hazard mitigation grant proposal. The State is responsible for
setting priorities for the selection of specific projects, but FEMA must provide final approval.
FEMA also awards sub-grants to local governments and eligible private non-profit
organizations. The amount of assistance available under this program must not exceed 20
percent of the total assistance provided under the other assistance programs.

Individual and Family Grants

FEMA awards Individual and Family Grants to individuals or families who, as a result of a
disaster, are unable to meet disaster-related necessary expenses and needs. To obtain
assistance under this grant, the Governor of the State must express intent to implement the
Program. This expressed intent includes an estimate of the size and cost of the Program. The
Grantee has the responsibility for monitoring the Program to ensure that the objectives and
requirements are met. FEMA provides an administrative fee to the Grantee for administrative
costs that cannot exceed 5 percent of the Federal grant program payments.

Administrative Funds

FEMA provides three types of administrative assistance to cover the costs of overseeing the
Public Assistance and Hazard Mitigation Grant Programs. First, an administrative allowance is
provided to cover the "extraordinary" costs directly associated with the management of the
program, such as overtime wages and travel costs. This allowance is determined by using a
statutorily mandated sliding scale with payments ranging from one-half to 3 percent of the
total amount of Federal disaster assistance provided to the Grantee. Second, FEMA can award
an administrative allowance referred to as "State Management Grants" on a discretionary basis
to cover the State's ordinary or regular costs directly associated with the administration of the
program. Third, FEMA can award an administrative allowance for activities indirectly
associated with the administration of the programs.




Leon Snead & Company, P. C.                      4
FEMA                                                   Florida Division of Emergency Management
                                                                                   State of Florida


                 111. OBJECTIVES, SCOPE AND METHODOLOGY
OBJECTIVES

The Department of Homeland Security, Office of Inspector General engaged Leon Snead &
Company, P.C. to determine if the State of Florida (1) administered FEMA's Disaster
Assistance Grant Programs according to Federal regulations, and (2) accounted for, reported
and used FEMA program funds properly.

SCOPE

The audit included reviews of both program and financial activities for the Public Assistance,
Hazard Mitigation, and Individual and Family Grant programs. The universe subject to audit
included 51 Presidential disaster, fire suppressant, and emergency declarations, for which
about $2.9 billion was controlled by the Grantee (See Exhibit A). The cut-off date for the
audit was September 30,2002.

We selected 10 disaster declarations, 1 fire suppressant declaration, and 1 emergency
declaration to review during our audit. The 12 disaster and emergency declarations included
in our audit scope had obligations of $2.6 billion, and expenditures of $1.8 billion as of
September 30, 2002. Our test included 1,271 Public Assistance projects in 12 disasters, 30
Hazard Mitigation projects in 7 disasters, and 180 Individual and Family Grant applicants in 3
disasters. Expenditures totaled over $443 million or about 17 percent of total obligations for
the 12 disasters.

The audit encompassed the functional areas of program and financial management, with
emphasis on current Grantee procedures and practices for program administration and
oversight. Fieldwork for the audit was performed during the period of March 3 through July
17,2003.

METHODOLOGY

The audit was performed under the authority of the Inspector General Act of 1978, as
amended, and in accordance with generally accepted government auditing standards as
prescribed by the Comptroller General of the United States (Yellow Book-1994 Revision), and
with Inspector General Audit Guide and 44 CFR.

Key officials were interviewed and documents were reviewed at FEMA, Region IV Office in
Atlanta, Georgia, to understand how the region oversees the disaster programs in Florida. We
also conducted interviews and reviewed documents at the Grantee's office in Tallahassee,
Florida to gain an understanding of their organizational structure and basic procedures for
managing the disaster assistance grant programs.




Leon Snead & Company, P.C.                     5
     FEMA                                                   Florida Division of Emergency Management
                                                                                        State of Florida


     We selected and tested records of individual recipients and representative projects to
     determine whether disaster assistance projects and programs had been conducted in
     compliance with applicable regulations.
     Our audit focused on evaluating the Grantee's systems and procedures to identify causes of
     internal control weaknesses or noncompliance situations. We reviewed all aspects of program
     management including application, approval, monitoring and reporting. Our financial
     management review covered the policies and procedures relating to cash management,
     matching, disbursing and reporting. We also evaluated compliance with the standards for
     financial management systems set forth in 44 CFR 13.20.

     We reviewed the results of audits of sub-grantees performed by the Department of Homeland
     Security, Office of Inspector General, and Single Audits of the Grantee performed by the
     Auditor General for Florida.

     We were not engaged to, and did not perform, a financial statement audit, the objective to
     which would have been the expression of an opinion on specified elements, accounts, or items.
     Accordingly, we do not express an opinion on the costs claimed for the disasters under the
     scope of the audit. Had we performed additional procedures or conducted an audit of the
     financial statements in accordance with generally accepted auditing standards, other matters
     might have come to our attention that would have been reported. This report relates only to
     the accounts and items specified and it does not extend to any financial statements of the
     Grantee or the State of Florida. The audit also did not include interviews with sub-grantees or
     technical evaluations of the repairs of damages caused by the disasters.




     Leon Snead & Company, P. C.                    6


                                                                                 --                        --
                                                                                                                    ---
                                                   --
                                                                        - -
                                                                                                                -     - -
                                                                                                                        -
--     -- _ --
            __           --
               .__________ -
                           -__
                                                 -
                                                 -    --- ---                           --     -
FEMA                                                   Florida Division of Emergency Management
                                                                                   State of Florida


                 VI. FINDINGS AND RECOMMENDATIONS
We found that the Grantee needed to improve its procedures for: (1) reporting total disaster
costs, (2) managing obligations and expenditures for State Management Grants, (3) making
payments to sub-grantees, and (4) monitoring projects and project closeouts. Except for the
findings contained in this audit report, nothing came to our attention during the audit that
questioned the accuracy of the information contained in the financial reports submitted to
FEMA.

A. PROGRAM MANAGEMENT

   A.l Payments to Sub-grantees

         The grantee's management controls over Public Assistance projects were not
         sufficient to ensure that payments to sub-grantees were made in accordance with
         Federal regulations. We identified $13.8 million in payments under large projects to
         three sub-grantees that were made prematurely. Also, we identified $4.2 million in
         payments to 10 sub-grantees under small projects that were not made timely after
         FEMA's approval of the projects.

         Advance Payments Under Large Projects

         The audit disclosed four instances where the grantee deviated from its established
         procedures for processing payments to sub-grantees. Controls and accountability
         over advances of federal funds must be effectively maintained to ensure that the
         funds are used for authorized purposes, (44 CFR 13.20 (b)(3)).

         Specifically, Disaster Relief Funding Agreements (contracts) were required by the
         Grantee and were to be signed by both the Grantee and sub-grantees before funds
         were disbursed. To comply with these contracts, sub-grantees were required to
         maintain sufficient documentation to permit the tracing of funds to source
         documents, and to certifL with each reimbursement request that allowable expenses
         had occurred and were adequately supported. To guard against funds being used in
         violation of the restrictions and prohibitions of FEMA grant funding, the certification
         was considered necessary before reimbursement could be processed by the Grantee.

         The sub-grantees generally certified that expenses were supported ,by source
         documents when payments were made by the Grantee. However, we found that one
         grants manager approved payments totaling $13.9 million under 43 large projects
         without payment requests and the required certifications from the sub-grantees.
         Based upon this approval, the Grantee disbursed the $13.9 million to three sub-
         grantees under the large projects for which the sub-grantees had not requested
         payment, and therefore had not certified that support was available. Also, the Project
         Status Report submitted for one of the projects (Project No. 1452) showed that the


Leon Snead & Company, P.C.                     7
FEMA                                                  Florida Division of Emergency Management
                                                                                  State of Florida


         work was only 20 percent complete; however, 100 percent of the Federal share of the
         project's costs was paid to the sub-grantee.

         These premature payments were made to the following sub-grantees:
                Miami-Dade County, $5.1 million under disaster Number 3 131 and $7.3
                million under Disaster Number 1306.
                Florida Department of Business and Professional Regulation, $1.3 million
                under Disaster Number 955.
                Manatee County, $21 9,000 under Disaster Number 1195.

         The grants manager stated that he was aware of the requirements to obtain support
         for disbursements made by sub-grantees before he could process reimbursements;
         however, the manager could not explain how the approvals to advance the funds
         were made without being requested by the subgrantee.

         Similarly, under Disaster No. 1345, the City of Opa-Locka, was provided advanced
         payments totaling over $1.8 million for 12 Public Assistance projects on February 8,
         2002. In these instances, the grantee did not obtain supporting information from the
         sub-grantee justifying the need for the advance or explaining how the funds were to
         be used. At the time of the audit, grantee officials could not determine whether the
         sub-grantee had spent the $1.8 million for authorized purposes or had earned interest
         on the funds received.

         Federal regulation provides that grantees and sub-grantees shall be paid in advance,
         provided they maintain or demonstrate the willingness and ability to minimize the
         time elapsed between the transfer of finds and disbursement (44 CFR 13.21 (c)}.

         Because the sub-grantees did not request reimbursement of expenses, these payments
         by the grantee were advances of federal finds. Except in limited circumstances,
         Federal regulations require grantees and sub-grantees to promptly remit interest
         earned on advances to the Federal agency, and the grantee should follow up with
         these sub-grantees to determine the amounts of interest earned on the advances.

         Untimely Payments Under Small Projects

         The grantee needs to improve its payment procedures for small projects to ensure
         that the federal share of the estimated cost is disbursed timely to sub-grantees.
         Federal regulation provides that the grantee will make payments to sub-grantees of
         the federal share of all small Public Assistance projects as soon as practicable after
         federal approval of funding, (44CFR 206.205 (a)}.

         The audit disclosed that under 294 small Public Assistance projects the grantee
         disbursements to 10 sub-grantees were not made timely. This was caused by the
         Grantee's failure to recognize that FEMA had approved and obligated the funds for
         the projects. Also, for some of the sub-grantees, the Governor's Authorized

Leon Snead & Company, P.C.                     8
FEMA                                                   Florida Division of Emergency Management
                                                                                   State of Florida


         Representative did not sign the statehub-grantee Disaster Relief Funding
         Agreements for up to five months after the sub-grantees had signed the documents.
         This resulted in $4.2 million of payments to sub-grantees that ranged from 48 to 498
         days late.

         Conclusion and Recommendations

         The grantee did not have effective controls over payments of federal funds to ensure
         that grant managers had received the appropriate documentation prior to authorizing
         payments of federal funds. Further, the grantee's procedures for making payment of
         federal funds under small projects needs to be improved to ensure that the payments
         are made timely.

         The Director, FEMA Region IV, should require the Grantee to:

         1.    Emphasize to its grants managers the importance of following existing
               payment procedures and contract requirements with sub-grantees to ensure that
               all reimbursements are supported with sufficient documentation.

         2.    Determine if the three sub-grantees have support to demonstrate that the $13.9
               million disbursed without required certifications were used timely and for
               authorized purposes, and obtain refunds of federal funds if appropriate.

         3.    Determine how the $1.8 million in advanced funding to the City of Opa-Locka
               was expended and request a refund for any funds used for unauthorized
               purpose.

         4.    Follow up with the four sub-grantees to determine if interest was earned on the
               advances and remit interest earned to FEMA pursuant to 44 CFR 13.21.

         5.    Implement procedures to timely identify obligations made by FEMA and
               ensure that statelsub-grantee agreements are timely executed to facilitate
               payments to sub-grantees under small projects as soon as practicable after
               FEMA's approval of the projects.

         Management Response and Auditor's Analysis

         In response to Recommendation No. 1, the Grantee stated that two software
         programs have been implemented to ensure that all contract requirements are met
         before reimbursements are made to sub-grantees. Both software applications were
         established in Florida PAPERS, the electronic signature and data management
         system that manages all PA processes electronically. The quality control procedures
         of these systems and the improved monitoring procedures of the Public Assistance
         Coordinators will ensure that payments are made in accordance with the contract
         requirements.


Leon Snead & Company, P.C.                     9
      FEMA                                                        Florida Division of Emergency Management
                                                                                              State of Florida


                For Recommendation No. 2, the Grantee stated in its response that every project
                under disaster 3 131 except one was complete when the project work (PW) sheet was
                written and the one was 99% complete when the PW was written. Grantee further
                stated that there was no chance of premature payments on the projects. However, the
                grantee indicated that premature payments were possibly made on projects under
                disaster 1306 and the grantee is sending a letter to the county requesting return of
                any interest earned on the payments. Also the Grantee indicated that there is no
                likelihood that premature payments were made on projects under disaster nos. 955
                and 1 195 because the payments were not made until long after the projects were
                completed.

                For Recommendation No. 3, the Grantee responded that documentation has been
                received, for some of the projects, which supports that the City of Opa-Locka used
                the advance funds for authorize purposes. However, the review process has not been
                completed for all projects. The Grantee further stated that a letter will be sent to the
                City requesting the return of any interest earned on the advanced funds.

                In response to Recommendation No. 4, the Grantee stated that letters are being
                prepared for Miami-Dade County and the City of Opa-Locka to request refunds of
                interest earned on the advanced funding.

                For Recommendation No. 5 the Grantee has implemented software applications in
                the Florida PAPERS system to ensure compliance with FEMA payment regulations
                for small projects.

                FEMA Region IV indicated that the regional office concurs with the State's response
                and its corrective actions taken or planned.

                 Management's actions are adequate to resolve the finding and close
                 Recommendations No. 1, and 5. To close recommendation No. 2, the Granlee must
                 determine fi the three sub-grantees have support to demonstrate that the $13.9
                 million disbursed was used for authorized purposes and obtain refunds if federal
                funds were not used appropriately. The response states that project work sheets for
                Jinal inspection were prepared but it does not say they were completed, which are
                 two necessary functions in the documentation process. To close Recommendation
                 No. 3, the Grantee must complete its review of the city's support to show the funds
                 were expended for authorized purposes. To close Recommendation No. 4, the
                 Grantee must ensure that any interest earned for the advanced payments has been
                 refunded to FEMA or obtain support to show that no interest was earned by the sub-
                 grantee.




      Leon Snead & Company, P. C.                        10

                                                                                  -                                      -
- -
         -
         -
      -..----     ---                 pp




                                         ---     - ---
                                                              -
                                                                                         _   _   _   -   _   _
                                                                                                                 -
                                                                                                                 I   - -
                                                                                                                     - -     -    ---
                                                                                                                                 --
FEMA                                                   Florida Division of Emergency Management
                                                                                   State of Florida


    A.2 Proiect Monitoring

         The grantee needs to improve its procedures for monitoring projects approved by
         FEMA under the Public Assistance and Hazard Mitigation Programs. We reviewed
         1,271 Public Assistance and 30 Hazard Mitigation projects for various purposes and
         found deficiencies in the grantee's monitoring procedures associated with closing
         projects, controlling property buyout projects, extending the date of completion,
         ensuring compliance with program requirements and processing appeals, as
         discussed below.

             PA project files for 19 of 28 completed large projects in Miami-Dade County,
             under Disaster Number 1306, did not include final inspection reports. The
             Grantee shall certify to the Regional Director that reported costs were incurred in
             the performance of eligible work, that the approved work was completed, that
             the project is in compliance with the FEMA-State Agreement, and that payments
             have been made in accordance with Federal regulations, (44 CFR 206.205
             (b)(l)). Although the project files had been closed at the time of our review, the
             Grantee could not determine if the final inspections had been performed and not
             documented or if they had not been performed. Grantee officials concurred that
             for the final inspection process to be complete and properly documented, final
             inspection reports must be prepared and should be part of project files. However,
             grantee officials could not explain how the projects were closed without a final
             inspection report being prepared.

             On September 19, 2000, Walton County (sub-grantee) executed a contract with
             the grantee to provide for the buy-out of 12 properties under project 0066 FEMA
             Disaster No. 1249. FEMA Region IV and/or the Grantee officials performed
             various reviews of the 12 properties, including eligibility determinations,
             environmental considerations, duplication of benefits and cost benefit analyses.
             FEMA approved the buy-out of these 12 properties, but only three of the
             properties were acquired.

             The sub-grantee then requested, on March 30, 2001, and the Grantee approved,
             the substitution of five properties from a waiting listing of potential property
             owners. However, FEMA did not review and approve these five substituted
             properties as required by Federal regulations. The five substituted properties are:

             Property No. 1    121 Old Creek Lake Road
             Property No. 2    1372 Cedar Log Lake Road
             Property No. 3    1360 Cedar Log Lake Road
             Property No. 4    96 Tall Pine Street
             PropertyNo.5      21082U.S.331North

             Grantees and sub-grantees must obtain prior approval of the awarding agency
             when any revision of the scope or objectives of the project (regardless of whether

Leon Snead & Company, P.C.                      11
FEMA                                                   Florida Division o f Emergency Management
                                                                                    State of Florida


             there is an associated budget revision requiring prior approval) is needed, (44
             CFR 13.30 (d)). The FEMA Regional Director must approve applications and
             supplements, and has final approval authority for funding of all projects, (44
             CFR 206.436 (f)). On December 23, 2002, without FEMA's approval, the
             Grantee reimbursed the sub-grantee for acquiring these properties and claimed
             $324,470 for the purchase of the five properties under FEMA Disaster No. 1249.

             Previously, the grantee requested FEMA's approval under a separate disaster (No
             1195, Project 0064) to buy substituted property No. 5. At that time, FEMA
             officials denied the requests because they questioned the cost benefit of the buy-
             out. The grantee informed the sub-grantee of this decision on August 14, 2002;
             however, the sub-grantee had already acquired the property on March 29,2002.

             This condition occurred because the grantee had assigned two different grants
             managers to process and oversee Walton County's projects for HM funding.
             This was an inefficient and ineffective use of personnel resources as illustrated
             above by the grantee's failure to recognize that the same property for Walton
             County was processed for HM buyout under two disaster declarations. During
             our discussion with grantee officials, we were informed that more than one grant
             manager is often assigned to independently handle projects approved for a single
             sub-grantee.

             On March 29, 2001, Holmes County (sub-grantee) executed a contract with the
             grantee for the acquisition of 20 properties under project 0104, FEMA Disaster
             No. 1195. FEMA Region IV and/or grantee officials performed various reviews
             including eligibility determinations, environmental considerations, duplication of
             benefits and cost benefit analyses. FEMA approved the buy-out of these 20
             properties. Five property owners accepted the buy-out under the project, but the
             sub-grantee acquired two of the properties under a different project funded by
             Disaster No. 1069.

             Also, Holmes County purchased the following properties that had not been
             reviewed by the grantee or FEMA and that had not been approved by FEMA.

             Parcel No.        1334.2- 1-0-21.OOO
             Parcel No.        1316.0-0-0-2.000
             Parcel No.        0933.0-0-0-24.000
             Parcel No.        1232.0-0-0-1 5.000
             Parcel No.        1327.3-1-0-17.000
             Parcel Nos.       1327.4-1-288.000, 151, 173,211,222,240,
                                               256,271,280 (Mobile Home Park)

             The grantee was fully aware that these properties had not been approved by
             FEMA, but nevertheless reimbursed Holmes County $273,385 for purchasing
             properties and processed a claim to FEMA for this amount. Again, the grantee

Leon Snead & Company, P.C.                      12
FEMA                                                   Florida Division of Emergency Management
                                                                                   State of Florida


             assigned two different grant managers to independently monitor the sub-grantee
             activities and authorized the inclusion of properties for buy-out under more than
             one project without, apparently, recognizing the duplication until they were in
             the process of acquiring the properties under different disasters.

             The Grantee, at the time of the audit, was in the process of completing projects
             under the initiative program that allows States to use up to 5% of the approved
             Hazard Mitigation funding at their discretion. We determined that one of these
             projects, (0955-051 1) had been completed for over 3% years, but it had not been
             closed and FEMA had not been advised of the unused funding totaling $522,065
             that should have been de-obligated. During our discussions with Grantee
             officials it was disclosed that none of the 5% initiative projects had been
             monitored by the grantee.

         * The Grantee requested FEMA Region IV to close a Hazard Mitigation project
             awarded to Hernando County for property elevations. The project required that
             elevated properties be equipped with breakaway walls or openings at the
             foundations. FEMA Region IV officials raised various concerns and questions
             regarding the proposed project, and an inspection by the Grantee revealed that
             the lower areas of two of the elevated properties had been enclosed and were
             being used by the owners as live-in space, Under the terms of the award, these
             lower areas of the property were designed to protect the property from flooding
             and should not have been enclosed as a lived-in area. Although the sub-grantee
             was requested to provide further information regarding these two properties, the
             Grantee's final inspection report recommended project closeout as if these t w o
             properties were completed in a manner that complied with the grant agreement.
             FEMA was in the process of closing out this project. Following our discussions
             with Grantee officials at the time of our audit, they requested FEMA Region IV
             to stop the closeout process and contacted the sub-grantee to obtain additional
             information to correct the pending issues.

             Broward County, under Emergency No. 3 131, submitted three Project
             Worksheets totaling over $3 million for costs paid to county employees who
             could not come to work because of the emergency. The Project Worksheet
             showed these costs as lost salaries. FEMA subsequently disallowed the costs and
             disapproved the projects. The County appealed the decision stating that it was
             inconsistent with FEMA's guidelines at the time the worksheets were filed.
             However, the Grantee's files were not documented to show that the appeal had
             been reviewed and evaluated, and then submitted to FEMA.

             A sub-grantee may appeal any determination previously made related to an
             application for or the provision of Federal assistance. The appeal will be in
             writing through the Grantee to the Regional Director. The Grantee shall review
             and evaluate all sub-grantee appeals before submission to the Regional Director,
             (44 CFR 206.206).

Leon Snead & Company, P.C.                     13
FEMA                                              Florida Division of Emergency Management
                                                                              State of Florida


      The grants manager responsible for this appeal stated that he had properly
      responded to the applicant by telephone. The grants manager was not aware that
      an appeal must be presented to the Regional Director in writing. He believed the
      appeal was properly handled because he had contacted both the applicant and the
      Regional Office by telephone. In addition, the grants manager could not provide
      a record of these telephone discussions.

   Conclusion and Recommendations:

   Grantees must monitor Federal grant activities to ensure that performance goals are
   being achieved and that sub-grantees have complied with applicable Federal
   requirements (44 CFR 13.40 (a)). The grantee was not monitoring project activities
   effectively and monitoring activities performed by the grantee frequently were not
   documented in the project files.

   The Director, FEMA Region IV, should require the Grantee to:

       Implement procedures to effectively monitor sub-grantee activities to ensure
       enforcement of program requirements, the documentation of key monitoring
       activities and appeal processing actions, and the proper closeout of HM and PA
       projects.

       Develop personnel staffing procedures for the Public Assistance and Hazard
       Mitigation Programs that fix responsibility for overseeing a sub-grantee's
       activities to a single grant manager, and ensure that the assigned grant manager is
       fully informed of all sub-grant activities related to the respective program.

       Provide justification and support for changing the Hazard Mitigation projects'
       scope-of-work, including the basis for selecting the substituted properties that
       were acquired under the Hazard Mitigation projects.

       Implement procedures to ensure that all future changes to the scope-of-work for
       Hazard Mitigation projects are approved in advance by FEMA.

       Recoup the unauthorized payments of $597,855 made to Walton and Holmes
       Counties.

       Implement procedures for documenting actions take in response to appeals and
       ensure that such actions comply with FEMA requirements.

  Management Response and Auditor's Analysis

  In response to Recommendations No. 1 the Grantee stated it has taken several
  initiatives to improve sub-grantee monitoring. Where appropriate, one program
FEMA                                              Florida Division of Emergency Management
                                                                              State of Florida


  manager is assigned to an applicant to reduce any confusion or duplication of effort.
  All staff has been retrained on the proper management of an applicant appeal.

  Ln response to Recommendation No. 2 the Grantee stated that to rectify the issue, one
  grants manager has been assigned to all 5% HMGP initiatives. On all other HMGP
  projects, there is one grants manager assigned to each project.

  In response to Recommendation No.3 the Grantee indicated that it had verbal approval
  from FEMA Region IV to make the property substitutions but there was no
  documentation to support the approval. It further stated that to ensure this will not
  happen again, the State has revised its Standard Operation Guidelines and the State
  Hazard Mitigation Grant Program Administration Plan to be consistent with FEMA's
  policy on performance periods and changes in Scope of Work.

  In response to recommendation No. 4, the Grantee indicated that the revised guidelines
  and Hazard Mitigation plan discussed in the response to recommendation N o 3 will
  resolve this issue.

  In response to recommendation No.5 the Grantee stated the work was secured by the
  sub-grantee in the appropriated manner for work that was verbally approved by the
  State and FEMA, and was therefore authorized work. The funds were expended
  properly for these activities, and the State does not agree that they should be recouped
  from these counties for the work performed.

  In response to Recommendation No. 6, the Grantee has implemented procedures that
  should ensure that all appeals are properly handled and controlled. The automated
  paper tracking system should ensure that proper emphasis is place on appeals received
  by the grantee.

  FEMA Region IV concurred, in part, with the State's response and corrective action
  taken and advised that FEMA and the State will re-visit the issue of buyouts in Walton
  and Holmes Counties. After review, it will then be determined whether to recoup the
  $597,855.

  Management actions are adequate to resolve and close Recommendation Nos. 1,2,3,
  4 and 6. However, the finding remains unresolved pending a final determinationporn
  Region IV on Recommendation No. 5.
FEMA                                                   Florida Division of Emergency Management
                                                                                   State of Florida


B. FINANCIAL MANAGEMENT

    B.l Reportinp Non-Federal Share of Program Cost

         The Financial Status Report (SF 269), as of September 30, 2002, under-stated the
         non-Federal share of disaster costs by $60,710,090. The Grantee tracked and
         reported on the federal and state funds expended under the Public Assistance and
         Hazard Mitigation Programs, but did not account for or report the local matching
         funds expended by the sub-grantees that implemented the projects. As a result,
         FEMA officials did not receive complete and accurate financial information to assist
         them in their monitoring efforts.

         The grantee's fiscal controls and accounting procedures must be sufficient to permit
         preparation of financial status reports, as required by FEMA (44 CFR 13.20(a)).

         Specifically, the nowFederal share for the Public Assistance and Hazard Mitigation
         Grant Programs reported on the September 30,2002, Financial Status Report did not
         equal the 25% non-federal share of the total disaster costs. Grantee officials stated
         that the State's policy for the Public Assistance Program generally required the sub-
         grantees to provide 12.5% of the total disaster response and recovery costs, and for
         the State to provide the other 12.5% to meet the required 25% matching obligation.
         Also, the State shared costs for the non-federal portion of Hazard Mitigation projects
         with some sub-grantees; however, the State and local shares were established for
         each project or disaster.

         The Office of Finance and Accounting officials stated that their accounting records
         reflected only the amounts of State disbursements that had been issued -to sub-
         grantees, and did not reflect the amounts provided by the sub-grantees.

          The grantee's fiscal controls for financial reporting did not include procedures to
          collect the local matching share of program outlays incurred by sub-grantees which
          were not reimbursed with federal or state funds. This information is necessary to
          complete financial status reports properly, as required by 44 CFR 13.20 (a). Grantee
          officials stated that the under-reporting of the non-Federal share had been brought to
          their attention for the Hazard Mitigation Grant Program and corrective actions were
          taken on the March 31, 2003, Financial Status Report. The officials agreed that
          similar actions were needed for the Public Assistance Program and stated that
          corrective actions would be taken in the future.

          Conclusions and Recommendation:

          The Grantee did not accurately report the non-Federal share of disaster costs in their
          Financial Status Reports for the period ending September 31, 2002. This was
          because the grantee did not systematically collect the local matching share of
          program outlays incurred by sub-grantees to facilitate the periodic preparation of
          financial status reports.

Leon Snead & Company, P.C.                      16
FEMA                                              Florida Division of Emergency Management
                                                                              State of Florida


     The Director, FEMA Region IV, should instruct the Florida Department of
     Community Affairs to develop procedures to capture the local matching share of
     program outlays incurred by sub-grantees to use when preparing the Financial Status
     Report (SF 269).

     Management Response and Auditor's Analysis

     The Grantee responded that in some cases, the non-Federal share was not
     appropriately represented on the SF 269. Actions have been taken to ensure that all
     staff will include the non-Federal share on the SF 269. FEMA Region IV concurred
     with the State's response.

     The actions taken by management are adequate to resolve and close the finding.

 B.2 Controls Over Drawdowns

     The internal controls over grant funds needed improvement to ensure that
     drawdowns of Federal funds do not exceed Federal obligations. Our review showed
     that drawdowns of Federal funds exceeded FEMA obligations for State Management
     Grants because the drawdowns were recorded on a total disaster basis rather than by
     project. At the time of our audit, drawdowns of Federal funds for State Management
     Grants exceeded obligations by about $2 million.

     Effective controls and accountability must be maintained for all grant cash to assure
     that it is used solely for authorized purposes, and actual expenditures are compared
     with budgeted amounts for each grant and sub-grant, (44 CFR 13.20(b)(3) and (4)).

     The grantee should implement controls for projects at the state level similar to
     controls over sub-grantees. The grantee had established controls to assure that
     amounts paid to sub-grantees did not exceed amounts obligated by FEMA for
     individual projects. However, the grantee had not established such controls for state
     managed projects approved by FEMA.

     The grantee's procedures for disbursing federal funds were to drawdown funds and
     immediately issue state warrants for incurred expenditures. The drawdowns were
     not reconciled with amounts obligated by FEMA for each project.          Since the
     drawdowns exceeded obligations, this resulted in the grantee expending more than
     amounts obligated for its use. We identified the following projects implemented by
     the grantee where the disbursements exceeded obligations:
            FEMA                                                  Florida Division of Emergency Management
                                                                                              State of Florida


                                                  Management             Management
                     Disaster                     Grant Funds            Grant Funds Excess
                     Number                       Obligated              Drawn Down Draw Down
                     Hazard Mitigation




                     Public Assistance




                     Total Excessive Draw Downs                                                $2,056,920

                     The public assistance projects for disaster number 1306 included project worksheet
                     numbers 27, 28, 1597, and 1607. The project worksheet numbers for disaster
                     number 1345 are 1605 and 2795.

                     The excess expenditures by the grantee had an adverse impact on the sub-grantees,
                     since these funds were not available to them to complete approved projects. State
                     officials stated their controls over drawdowns of funds for State Management Grants
                     were to ensure they did not drawdown more funds than the total obligated by FEMA
                     for the disaster.

                      Conclusionsand Recommendation:

                      Drawdowns of Federal funds for State Management Grants significantly exceeded
                      the amounts obligated for certain disasters. The Grantee needed to improve its
                      internal controls over funds management to prevent the draw down of excessive
                      federal funds for use under such grants.

                      The Director, FEMA Region IV, should:

                      1. Require the Grantee to implement sufficient internal controls to ensure that
                         drawdowns of Federal funds do not exceed amounts obligated for state
                         management grants.




            Leon Snead & Company, P,C.                      18

                                                                               --   -   -  -    - -
                                                                                                                  --
--
     ---     _ -
           - -
             - -
                 _         -
                           --__-    _________--
                                       --
                                                  --
                                                        -    _-    -
                                                                   _-=-
                                                                      _=__-_-__
                                                                                               -
                                                                                                   _             -
                                                                                                                 ---  --
                                                                                                                     --
            FEMA                                                        Florida Division of Emergency Management
                                                                                                    State of Florida


                        2. Require the Grantee to refund the federal funds improperly drawn down and used
                           for state management grant purposes that exceed the FEMA amount obligated
                           for such grants under the various disasters.

                        Management Response and Auditor 's Analysis

                        In response to recommendation No.1 the Grantee responded that the State has
                        implemented a new process in order to maintain accurate accounts of state
                        management costs. In response to recommendation No. 2 the Grantee responded
                        that the State staff has met with FEMA staff and jointly determined that instead of
                        refunding the funds that were improperly drawn down, the State would request
                        closeout of current management cost grants and request funding for expenditures
                        which exceeded the obligations.

                        FEMA Region IV concurred with the State's response and implementation of
                        corrective actions.

                        The actions taken by management are adequate to resolve and close the finding.

                  B 3 Improper Use of State Management Grant Funds

                        Better management controls were needed to ensure that state management grants
                        were expended for their intended purpose. The audit disclosed that $594,817 was
                        expended for six disasters under nine projects on items that were not approved by
                        FEMA on Public Assistance Project Worksheets. In addition, $2,900 for overtime
                        salary and benefit costs for disaster numbers 1300 and 1345 that should have been
                        funded by Statutory Administrative Costs were charged to State Management Grant
                        for the Hazard Mitigation program.

                        Effective controls and accountability must be maintained for all grant funds to assure
                        that it is used solely for authorized purposes, (44 CFR 13.20@)(3)).

                        The Project Worksheets prepared by the Grantee to obtain State Management Grants
                        under the Public Assistance program included funding for salaries, benefits, direct
                        costs and indirect costs only. However, our audit disclosed that Federal funds were
                        then drawn down and expended by the Grantee to purchase computer systems
                        development and information technology totaling $459,274; data processing
                        software totaling $56,05 1; and computer equipment totaling $79,492 that were not
                        approved under the projects. The disasters and projects were as follows:

                        Disaster Numbers      1195        1249         -
                                                                       1300            1306      1344              -
                                                                                                                   1345
                        Project Numbers      992 11       12491             710        1597       456              1605
                                             99225        992 13
                                             99277



           Leon Snead & C o q a n y , P.C.                    19

--
 --
      --   -
           -- -    --      --   -             -- -----
                                                         -- -
                                                           -
                                                          --- -    -   -
                                                                       --     _-   -   -- -   _____-
                                                                                                           -

                                                                                                        _---___=
                                                                                                                          --
                                                                                                                               =   --
                                                                                                                                   -
                                                                                                                                    _
                                                                                                                                       -

                                                                                                                                       _=
FEMA                                                    Florida Division of Emergency Management
                                                                                    State of Florida


          Conclusion and Recommendations:

          The grantee needs to implement sufficient management controls to ensure that
          charges to state management grants are consistent with FEMA approval. This is also
          necessary to ensure that expenditures funded under the statutory administrative cost
          allowance are not improperly charged to a state management grant.

          The Director, FEMA Region IV, should require the Grantee to:

          1. Implement sufficient controls over expenditures allocable to FEMA funded
             activities to assure that expenses charged to a State Management Grant have
             been approved by FEMA.

          2. Remove the duplicate charge of $2,900 from the state management grant account
             for the Hazard Mitigation Program that has been funded under the statutory
             administrative cost allowance.

          Management Response and Auditor's Analysis

          In response to recommendation No.1 the Grantee stated that the State is now
          implementing a procedure that ensures expenditures charged to the State
          Management Grant are approved by FEMA. In response to recommendation No.2
          the Grantee stated that the $2,900 is not a duplicate charge made by the State;
          however the amount has been moved by the grantee to the proper charge category.

          FEMA Region IV concurred with the State's response and implementation of
          corrective actions.

          The actions taken by management are adequate to resolve and close the$nding.




Leon Snead & Company, P. C.                    20
FEMA          Florida Division of Emergency Management
                                          State of Florida




       V. EXHIBITS
                                        Schedule of Source and Application of Funds                                      Exhibit A
                                        Florida Division of Emergency Management
                                            Disaster Assistance Grant Programs
                                                             As of September 30,2002



                  All Disasters Numbers 952 through 1392, Fire Suppresant Numbers 2201 through 2363,
                                 and Emergency Declaration Numbers 3116 through 3150
                                           Public            Individual         Hazard               Total
                                         Assistance           & Family         Mitigation           Disaster
                                          Grants               Grants           Grants               Grants

Award Amounts

   Federal Share

   Local MatcNState Share

Total Award Amount


Source of Funds

   Federal Share

   Local MatcNState Share

Total Source of Funds


Application of Funds

   Federal Share

   Local MatchIState Share

Total Application of Funds




                                                     0
Balance of Federal
Funds On Hand *                                                   $0                         $0                         $0                          SO

* The Florida Division of Emergency Management issued State Checks an average of 3 days before the drawndown of funds from Smartilink were
received in the State's treasury; therefore, the Balance of Federal Funds As of September 30,2002, were negative for some disaster grant programs As of
September 30,2003.




Leon Snead Contpany. P.C.                                                      22
                               Schedule of Source and Application of Funds                  Exhibit A- 1
                               Florida Division of Emergency Management
                                   Disaster Assistance Grant Programs
                                               As o f September 30,2002



I               Disaster Number 952 - Declaration Date August 14,1992 - Severe Storms and Flooding              I
                                       Public               Individual          Hazard                Total
                                      Assistance             & Family          Mitigation            Disaster
                                       Grants                 Grants            Grants               Grants

Award Amounts
    Federal Share

    Local MatcWState Share

Total Award Amount



Source of Funds
    Federal Share

    Local MatcWState Share

Total Source of Funds



Application of Funds
    Federal Share

    Local MatcWState Share

Total Application of Funds




Balance of Federal
Funds On Hand                                      $0                     $0                $0                  $0




Leon Snead Company. P. C.                                       23
                                Schedule of Source and Application of Funds                Exhibit A-2
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                               As of September 30,2002



1                    Disaster Number 955 - Declaration Date August 24,1992 - Hurricane Andrew

                                       Public               Individual         Hazard             Total
                                      Assistance             & Family         Mitigation         Disaster
                                       Grants                 Grants           Grants            Grants

Award Amounts

    Federal Share

    Local MatcWState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatchfState Share

Total Source of Funds



Application of Funds

    Federal Share

    Local MatcWState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                    $0                    $0                $0               $0




Leon Snead Company. P.C.                                       24
                                 Schedule of Source and Application of Funds                Exhibit A-3
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                As of September 30,2002



I                                                                    -
            Disaster Number 966 - Declaration Date October 8,1992 Severe Storms, Tornadoes, and Flooding     I
                                        Public               Individual         Hazard             Total
                                       Assistance             & Family         Mitigation         Disaster
                                        Grants                 Grants           Grants            Grants

    Award Amounts

      Federal Share

      Local MatchfState Share

Total Award Amount


    Source of Funds

      Federal Share

      Local MatcNState Share

Total Source of Funds


    Application of Funds

      Federal Share

      Local MatcNState Share

Total Application of Funds




Balance of Federal
Funds On Hand                                       $0                    $0                $0               $0




Leort Sitead Company. P. C.                                     25
                                Schedule of Source and Application of Funds                       Exhibit A-4
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                 As of September 30,2002



I        Disaster Number 982 -Declaration Date March 1 3 , 1 9 9 3 - Tornadoes, Flooding, High Winds & Tides         1
                                        Public               Individual              Hazard              Total
                                       Assistance             & Family              Mitigation          Disaster
                                        Grants                 Grants                Grants             Grants

Award Amounts

    Federal Share                          $33,405,528             $14,371,548           $1,785,417        $49,562,493

    Local MatchIState Share                $11,135,176                $4.790.516          $595,139         $16,520,831

Total Award Amount                         $44,540,704             $19,162,064           $2,380,556        $66,083,324



Source of Funds

    Federal Share                          $33,405,528             $14,371,548           $1,785,418        $49,562,494

    Local MatchfState Share                $10,602.007                $4.790,5 16        $1,756,849        $17,149,372

Total Source of Funds                      $44,007,535             $19,162,064           $3,542,267        $66,711,866



Application of Funds

    Federal Share                          $33,405,528             $14,371,548           $1,785,418         $49,562,494

    Local Matchistate Share                $10,602,007                $4.790,5 16        $1,756,849         $17,149,372

Total Application of Funds                  $44,007,535            $19,162,064           $3,542,267         $66,711,866




Balance of Federal
Funds On Hand                                        $0                       $0                 $0                  $0




Leotf Snead Conqpany. P.C.                                       26
                                 Schedule of Source and Application of Funds                     Exhibit A-5
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                  As of September 30,2002



I                                                               -
           Disaster Number 1035 -Declaration Date July 10,1994 Tropical Storm Alberto, Severe Storms, Flooding      I
                                         Public               Individual            Hazard                Total
                                        Assistance             & Family            Mitigation            Disaster
                                         Grants                 Grants              Grants               Grants

Award Amounts
    Federal Share

    Local MatcWState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatcWState Share

Total Source of Funds



Application of Funds

    Federal Share

    Local MatcWState Share

Total Application of Funds




Balance of Federal
Funds On Hand
                               Schedule of Source and Application of Funds                 Exhibit A-6
                               Florida Division of Emergency Management
                                   Disaster Assistance Grant Programs
                                               As of September 30,2002



I                    Disaster Number 1062 - Declaration Date August 10,1995 - Hurricane Erin                1
                                       Public               Individual         Hazard             Total
                                      Assistance             & Family         Mitigation         Disaster
                                       Grants                 Grants           Grants            Grants

Award Amounts

    Federal Share

    Local MatcWState Share

Total Award Amount


Source of Funds

    Federal Share

    Local MatcWState Share

Total Source of Funds


Application of Funds

    Federal Share

    Local MatchBtate Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                    $0                    $0                $0               $0




Leon Snead Contpany. P.C.                                      28
                               Schedule of Source and Application of Funds               Exhibit A-7
                               Florida Division of Emergency Management
                                   Disaster Assistance Grant Programs
                                               As of September 30,2002



1                                         -
                     Disaster Number 1069 Declaration Date October 4, 1995 - Hurricane Opal               I
                                       Public              Individual        Hazard             Total
                                      Assistance           & Family         Mitigation         Disaster
                                       Grants                Grants          Grants            Grants

Award Amounts

    Federal Share

    Local MatcWState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatcWState Share

Total Source of Funds



Apdication of Funds

    Federal Share

    Local MatcWState Share

Total Application of Funds




Balance of Federal
Funds On Hand *




Leon Snead Company. P.C.                                       29
                               Schedule of Source and Application of Funds                    Exhibit A-8
                               Florida Division of Emergency Management
                                   Disaster Assistance Grant Programs
                                               As of September 30,2002



I                       Disaster Number 1074 - Declaration Date October 27,1995 - Flooding                       I
                                       Public              Individual            Hazard              Total
                                      Assistance            & Family            Mitigation          Disaster
                                       Grants                Grants              Grants             Grants

Award Amounts
    Federal Share                          $7,011,517              $549,181          $2,019,984         $9,580,682

    Local MatcNState Share                 $2,337.172               $183.060          $673,328          $3,193,560

Total Award Amount                         $9,348,689               $732,241         $2,693,312        $12,774,242



Source of Funds

    Federal Share                          $7,010,418               $549,18 1        $2,013,924         $9,573,523

    Local MatcNState Share                 $2,248,571               $183.060           $645,483         $3,077,114

Total Source of Funds                      $9,258,989               $732,241         $2,659,407        $12,650,637



Application of Funds

    Federal Share

    Local MatcNState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                    $0                     $0                  $0                 $0




Leon Snead Company. P. C.                                     30
                                Schedule of Source and Application of Funds                     Exhibit A-9
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                As of September 30,2002



I                Disaster Number 1141 -Declaration Date October 15,1996 -Tropical Storm Josephine                    1
                                        Public              Individual             Hazard              Total
                                       Assistance            & Family             Mitigation          Disaster
                                        Grants                Grants               Grants             Grants

Award Amounts

     Federal Share                                  $0             $1,506,368           $910,128          $2,416,496

      Local MatcNState Share                        $0
                                                    -                 $502.123          $303,376              $805,499

Total Award Amount                                  $0             $2,008,491          $1,213,504         $3,221,995



    Source of Funds

     Federal Share

     Local MatchIState Share                        $0
                                                    -                 $528,732           $285.366             $814.098

Total Source of Funds                               $0               $2,035,100        $1,185,572          $3,220,672



Application of Funds

     Federal Share                                  $0               $1,506,368          $900,206          $2,406,574

     Local MatchIState Share                        $0
                                                    -                 $528,732           $285,366              $814.098

Total Application of Funds                          $0               $2,035,100        $1,185,572          $3,220,672




Balance of Federal
Funds On Hand *                                     $0                       $0                $0                    $0




Leon Snead Company. P.C.                                        31
                                Schedule of Source and Application of Funds                   Exhibit A- 10
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                 As of September 30,2002



1                         Disaster Number 1195 - Declaration Date January 6,1998 - Flooding                    1
                                        Public                Individual        Hazard               Total
                                       Assistance             & Family         Mitigation           Disaster
                                        Grants                  Grants          Grants              Grants

Award Amounts

    Federal Share

    Local MatchIState Share

Total Award Amount


Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds



Application of Funds

    Federal Share

    Local MatcNState Share

Total Application of Funds




Balance of Federal
Funds On Hand *




Leon S~zeadConrpany. P.C.                                        32
                              Schedule of Source and Application of Funds                Exhibit A- 11
                              Florida Division of Emergency Management
                                  Disaster Assistance Grant Programs
                                              As of September 30,2002




I   Disaster Number 1204 - Declaration Date February 12,1998 - Severe Storms, Winds, Tornadoes and Flooding   I
                                      Public              Individual         Hazard              Total
                                     Assistance            & Family         Mitigation          Disaster
                                      Grants                Grants           Grants             Grants

Award Amounts

    Federal Share

    Local MatcWState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatcWState Share

Total Source of Funds



Application of Funds

    Federal Share

    Local MatcWState Share

Total Application of Funds




Balance of Federal
Funds On Hand *




Leon Snead Conzpany. P. C.                                    33
                                Schedule of Source and Application of Funds                 Exhibit A- 12
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                As of September 30,2002



I                   Disaster Number 1223 - Declaration Date June 18,1998 - Extreme Fire Hazards

                                        Public               Individual         Hazard             Total
                                       Assistance             & Family         Mitigation         Disaster
                                        Grants                 Grants           Grants            Grants

Award Amounts

    Federal Share

    Local Matchistate Share

Total Award Amount



Source of Funds

    Federal Share

    Local Matchistate Share

Total Source of Funds



Application of Funds

    Federal Share

    Local Matchistate Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                     $0                    $0                $0               $0




Leon S~teadCompany. P.C.                                        34
                               Schedule of Source and Application of Funds                Exhibit A- 13
                               Florida Division of Emergency Management
                                   Disaster Assistance Grant Programs
                                               As of September 30,2002



I                   Disaster Number 1241 - Declaration Date September 4,1998 - Hurricane Earl              I
                                       Public              Individual         Hazard             Total
                                      Assistance           & Family          Mitigation         Disaster
                                       Grants                Grants           Grants            Grants

Award Amounts

    Federal Share

    Local MatcNState Share

Total Award Amount


Source of Funds

    Federal Share

    Local MatcWState Share

Total Source of Funds


Application of Funds

    Federal Share

    Local MatcNState Share

Total Application of Funds




Balance of Federal
Funds On Hand *




Leon Snead Company. P. C.                                      35
                                 Schedule of Source and Application of Funds                   Exhibit A- 14
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                 As of September 30,2002



I                   Disaster Number 1249 - Declaration Date September 28,1998 - llurricanc Georges                 1
                                         Public              Individual            Hazard             Total
                                        Assistance            & Family            Mitigation         Disaster
                                         Grants                Grants              Grants            Grants

Award Amounts

    Federal Share                           $87,662,557              $4,796,221       $13,266,639      $105,725,417

    Local MatcWState Share                  $29.220.852              $1,598.740        $4.422,213       $35,241.805

Total Award Amount                         $116,883,409              $6,394,961       $17,688,852       $140,967,222



Source of Funds

    Federal Share                           $82,799,346              $4,796,221        $6,562,577        $94,158,144

    Local MatcWState Share                  $17,630,738              $1,598,740        $1,402,244        $20.63 1,722

Total Source of Funds                      $100,430,084              $6,394,961        $7,964,821       $114,789,866



Application of Funds

    Federal Share

    Local MatchBtate Share

Total Application of Funds




Balance of Federal
Funds On Hand *




Leon Sizead Conzpany. P.C.                                      36
                                 Schedule of Source and Application of Funds                  Exhibit A- 15
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                  As of September 30,2002



I                   Disaster Number 1259 - Declaration Date November 6,1998 - Tropical Storm Mitch              1
                                          Public              Individual          Hazard              Total
                                         Assistance            & Family          Mitigation          Disaster
                                          Grants                Grants            Grants             Grants

Award Amounts
    Federal Share

    Local MatcNState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds



Application of Funds

    Federal Share

    Local MatcNState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                       $0                    $0                $0                $0




Leon Snead Company. P.C.                                          37
                                Schedule of Source and Application of Funds                 Exhibit A- 16
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                As of September 30,2002



I                   Disaster Number 1300 - Declaration Date September 22,1999 - Hurricane Floyd              1
                                        Public              Individual          Hazard             Total
                                       Assistance            & Family          Mitigation         Disaster
                                        Grants                Grants            Grants            Grants

Award Amounts

    Federal Share

    Local MatcNState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds



A~ulicationof Funds

    Federal Share

    Local MatcNState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                     $0                    $0                $0               $0




Leori Snead Cotnpany. P.C.                                      38
                              Schedule of Source and Application of Funds                  Exhibit A- 17
                              Florida Division of Emergency Management
                                  Disaster Assistance Grant Programs
                                               As of September 30,2002



I                   Disaster Number 1306 - Declaration Date October 20,1999 - Hurricane Irene               1
                                       Public              Individual          Hazard             Total
                                      Assistance            & Family          Mitigation         Disaster
                                       Grants                Grants            Grants            Grants

Award Amounts

    Federal Share

    Local MatcWState Share

Total Award Amount


Source of Funds

    Federal Share

    Local MatcWState Share

Total Source of Funds


Application of Funds

    Federal Share

    Local MatcWState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                    $0                    $0                $0               $0
                                 Schedule of Source and Application of Funds                 Exhibit A- 18
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                 As of September 30,2002




I                   Disaster Number 1344 - Declaration Date October 3,2000 - Tropical Storm Helene                1
                                         Public               Individual         Hazard               Total
                                        Assistance            & Family          Mitigation           Disaster
                                         Grants                 Grants           Grants              Grants

Award Amounts

    Federal Share                           $19,541,909                    $0        $1,469,261         $21,011,170

    Local MatcWState Share                   $6.5 13,970                   $0
                                                                           -          $489,754           $7,003,724

Total Award Amount                          $26,055,879                    $0        $1,959,015         $28,014,894



Source of Funds

    Federal Share                           $14,881,924                    $0          $324,807         $15,206,731

    Local MatcWState Share                   $3,453,813                    $0
                                                                           -           $101,318          $3,555,131

Total Source of Funds                       $18,335,737                    $0          $426,125          $18,761,862



Application of Funds

    Federal Share

    Local MatchJState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                      $0                    $0                so                   $0




Leon Snead Company. P. C.                                        40
                                Schedule of Source and Application of Funds                    Exhibit A- 19
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                 As of September 30,2002



1                         Disaster Number 1345 - Declaration Date October 3,2000 - Flooding                         I
                                        Pubiic                Individual           Hazard              Total
                                       Assistance              & Family           Mitigation          Disaster
                                        Grants                  Grants             Grants             Grants

Award Amounts

    Federal Share                          $487,395,457            $47,95 1,650       $20,654,468       $556,001,575

    Local MatcWState Share                 $162,465,152            $15,983,883         $6,884.823       $185,333.858

Total Award Amount                         $649,860,609            $63,935,533        $27,539,291       $741,335,433



Source of Funds

    Federal Share                           $56,330,132            $47,210,894         $8,061,258       $ 1 11,602,284

    Local MatcWState Share                  $10,404,969            $15.810,478         $2.767.391        $28,982.838

Total Source of Funds                       $66,735,101            $63,021,372        $10,828,649       $140,585,122



Application of Funds

    Federal Share

    Local MatchIState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                      $0                      $0                $0                   $0




Leon Snead Conzpany. P.C.                                        41
                                Schedule of Source and Application of Funds                 Exhibit A-20
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                 As of September 30,2002



I                   Disaster Number 1381 - Declaration Date June 17,2001 - Tropical Storm Allison              I
                                        Public               Individual         Hazard               Total
                                       Assistance             & Family         Mitigation           Disaster
                                        Grants                 Grants           Grants              Grants

Award Amounts

    Federal Share

    Local MatcNState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds



Application of Funds

    Federal Share

    Local MatcNState Share

Total Application of Funds




Balance of Federal
Funds On Hand *




Leon S~zeadCompany. P.C.                                         42
                               Schedule of Source and Application of Funds                 Exhibit A-2 1
                               Florida Division of Emergency Management
                                   Disaster Assistance Grant Programs
                                               As of September 30,2002



I              Disaster Number 1393 - Declaration Date September 28,2001 - Tropical Storm Gabrielle

                                       Public              Individual          Hazard              Total
                                      Assistance            & Family          Mitigation          Disaster
                                       Grants                Grants            Grants             Grants

Award Amounts
    Federal Share

    Local MatcNState Share

Total Award Amount


Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds


Application of Funds

    Federal Share

    Local MatcNState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                    $0                    $0                $0                $0




Leon Snead Company. P. C.                                     43
                                 Schedule of Source and Application of Funds                 Exhibit A-22
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                  As of September 30,2002



1                                                                           -
                    Fire Suppressant 2201 - Declaration Date June 16,1998 Jacksonville Fire Complex

                                          Public               Individual        Hazard                Total
                                         Assistance            & Family         Mitigation            Disaster
                                          Grants                 Grants          Grants               Grants

Award Amounts

    Federal Share

    Local MatcWState Share

Total Award Amount


Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds


Application of Punds

    Federal Share

    Local MatcWState Share

Total Application of Funds




Balance of Federal
Funds On Hand *




Leon Snead Company. P.C.                                          44
                                 Schedule of Source and Application of Funds                  Exhibit A-23
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                  As of September 30,2002



I                   Fire Suppressant 2251 - Declaration Date April 15,1999 - Okeechobee Fire Complex              1
                                          Public              Individual          Hazard                Total
                                         Assistance            & Family          Mitigation            Disaster
                                          Grants                Grants            Grants               Grants

Award Amounts

    Federal Share

    Local MatcNState Share

Total Award Amount


Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds


Application of Funds

    Federal Share

    Local MatchIState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                       $0                    $0                $0                  $0




Leon S~teadCompany. P. C.                                        45
                                  Schedule of Source and Application of Funds                 Exhibit A-24
                                  Florida Division of Emergency Management
                                      Disaster Assistance Grant Programs
                                                  As of September 30,2002




I                     Fire Suppressant 2253 -Declaration Date April 15,1999 -Orlando Fire Complex                I
                                          Public              Individual          Hazard             Total
                                         Assistance            & Family          Mitigation         Disaster
                                          Grants                Grants            Grants            Grants

    Award Amounts

      Federal Share                            $604,691                     $0                $0          $604,691

      Local MatcWState Share                   $259,153                     $0
                                                                            -                 -
                                                                                              $0          $259,153

Total Award Amount                             $863,844                     $0                $0          $863,844



    Source of Funds

      Federal Share                             $579,368                    $0                $0          $579,368

      Local MatcWState Share                    $248,301                    $0
                                                                            -                 -
                                                                                              $0          $248,301

Total Source of Funds                           $827,669                    $0                $0          $827,669



Application of Funds

      Federal Share

     Local MatcWState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                       $0                    $0                 $0                $0




Leon Snead Coinparty. P. C.                                       46
                                Schedule of Source and Application of Funds                   Exhibit A-25
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                 As of September 30,2002



1                   Fire Suppressant 2258 - Declaration Date April 20,1999 - Suwannee District Fire              I
                                         Public              Individual          Hazard                Total
                                        Assistance            & Family          Mitigation            Disaster
                                         Grants                Grants            Grants               Grants

Award Amounts

    Federal Share

    Local MatcWState Share

Total Award Amount


Source of Funds

    Federal Share

    Local MatchJState Share

Total Source of Funds



Application of Funds

    Federal Share

    Local MatchIState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                      $0                    $0                 $0                 $0




Leon Snead Companys P.C.                                        47
                                 Schedule of Source and Application of Funds                      Exhibit A-26
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                  As of September 30,2002



I                                                                           -
                Fire Suppressant 2262 - Declaration Date May 14,1999 Jacksonville District Fire (Duval)            I
                                         Public               Individual              Hazard             Total
                                        Assistance             & Family              Mitigation         Disaster
                                         Grants                 Grants                Grants            Grants

    Award Amounts

      Federal Share

      Local MatcWState Share

    Total Award Amount



    Source of Funds

      Federal Share

      Local MatcWState Share

Total Source of Funds



    Application of Funds

      Federal Share

      Local MatchIState Share

Total Application of Funds




BaIance of Federal
Funds On Hand *                                       $0                        $0                $0               $0




Leon Snead Coinparty. P. C.                                       48
                                Schedule of Source and Application of Funds                      Exhibit A-27
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                 As of September 30,2002



I                        Fire Suppressant 2294 - Declaration Date April 10,2000 - Merritt Fire                        I
                                         Public               Individual          Hazard                Total
                                        Assistance            & Family           Mitigation            Disaster
                                         Grants                 Grants            Grants               Grants

Award Amounts

    Federal Share                              $560,439                    $0                 $0            $560,439

    Local MatcNState Share                     $240,188                    -
                                                                           $0                                $240.188

Total Award Amount                             $800,627                    $0                 $0             $800,627



Source of Funds

    Federal Share                              $523,076                    $0                    $0          $523,076

    Local MatchIState Share                    $224,176                    $0
                                                                           -                     -
                                                                                                 $0          $224,176

Total Source of Funds                          $747,252                    $0                    $0             $747,252



Application of Funds

    Federal Share

    Local MatcWState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                      $0                    $0                    $0                   $0




Leon Snead Company P.C.                                          49
                              Schedule of Source and Application of Funds                            Exhibit A-28
                              Florida Division of Emergency Management
                                  Disaster Assistance Grant Programs
                                                As of September 30,2002



I              Fire Suppressant 2298 - Declaration Date May 16,2000 - Flowers Myakka Fire Complex                                        I
                                      Public                     Individual         Hazard                         Total
                                     Assistance                   & Family         Mitigation                     Disaster
                                      Grants                       Grants           Grants                        Grants

Award Amounts

    Federal Share

    Local MatchIState Share                  $921,579                         -
                                                                              $0                     -
                                                                                                     $0                     $921,579

Total Award Amount                          $3,071,930                        $0                     $0                $3,071,930



Source of Funds

    Federal Share                           $2,150,351                        $0                     $0                    $2,150,351

    Local MatchIState Share                  $937,830                         $0
                                                                              -                      -
                                                                                                     $0                     $937,830

Total Source of Funds                       $3,088,181                        $0                     $0                    $3,088,181



Application of Funds

    Federal Share

    Local MatcNState Share

Total Application of Funds




Balance of Federal
Funds On Hand *                                     $0                        $0                      $0                                 $0




Leon Snead Contpany. P.C.                                          50
                                                                                                                            ~-       -
                                                                                           - -
                                                                                                                            - - - -- .--
                                                                                                          ~


                                       --                                                             ~




                                 ~ . - ~
                                        ~




                                                         ~   -    -                              -            .     ----         ~
                                             Schedule of Source and Application of Funds                                Exhibit A-29
                                             Florida Division of Emergency Management
                                                 Disaster Assistance Grant Programs
                                                                     As of September 30,2002



         I                   Fire Suppressant 2299 - Declaration Date May 1 9 , 2 0 0 0 - Withlocoothee Fire Complex                            1
                                                        Public                   Individual              Hazard                 Total
                                                       Assistance                 & Family              Mitigation             Disaster
                                                        Grants                     Grants                Grants                Grants

          Award Amounts

             Federal Share                                      $4,269,996                     $0                    $0            $4,269,996

             Local MatcNState Share                             $1,829,998                     -
                                                                                               $0                    -
                                                                                                                     $0            $1,829,998

          Total Award Amount                                    $6,099,994                     $0                    $0            $6,099,994


          Source of Funds

             Federal Share                                      $4,269,996                     $0                       $0         $4,269,996

             Local MatcWState Share                             $1,725,716                     $0
                                                                                               -                        -
                                                                                                                        $0         $1,725,716

          Total Source of Funds                                 $5,995,712                     $0                       $0          $5,995,712


          Application o f Funds

             Federal Share                                      $4,269,996                     $0                       $0          $4,269,996

             Local MatcWState Share                             $1.725,716                     -
                                                                                               $0                       -
                                                                                                                        $0          $1,725,716

          Total Application of Funds                            $5,995,712                     $0                       $0          $5,995,712




          Balance of Federal
          Funds On H a n d *                                             $0                    $0                       $0                      $0




         Leon Snead Company. P.C.                                                    51
                                                         -
                                                         --                  -
                                                                                                                    -        ---
         --                                                                                                     -                                -
-

    --
     - - ---                             -   --                 --      --- -
                                                  pp




    -
    --
     -                                                  -   -                         ----          -   -
                                                                                                        -                                 -
                                        Schedule of Source and Application of Funds                    Exhibit A-30
                                        Florida Division of Emergency Management
                                            Disaster Assistance Grant Programs
                                                         As of September 30,2002



       I                    Fire Suppressant 2300 - Declaration Date May 20,2000 - Lakeland Fire Complex

                                                Public               Individual            Hazard             Total
                                               Assistance             & Family            Mitigation         Disaster
                                                Grants                 Grants              Grants            Grants

        Award Amounts

            Federal Share

            Local MatcNState Share

       Total Award Amount



        Source of Funds

            Federal Share

            Local MatcNState Share

       Total Source of Funds



        Application of Funds

            Federal Share                            $1,175,445                      $0                $0             $1,175,445

            Local MatcNState Share                     $503,762                      $0
                                                                                     -                 -
                                                                                                       $0              $503,762

       Total Application of Funds                    $1,679,207                      $0                $0             $1,679,207




       Balance of Federal
       Funds On Hand *




       Leon Snead Conipany. P.C.                                        52

                                         --
                                                                                                 -
                                                                                                 ---
                                                                                                  -     -
                                                                                                        -     -   -
                                                                                                                       -
                                                                                                                        -   -
                                                                                                                                   --
                                                                                                                                   -
                                                                                                                                        -   -
                                                                                                                                            - -
-   -
    --- -         -         --       -- --        ~-                           - -   --     --
                                       Schedule of Source and Application of Funds                       Exhibit A-3 1
                                       Florida Division of Emergency Management
                                           Disaster Assistance Grant Programs
                                                        As of September 30,2002



        1              Fire Suppressant 2301 - Declaration Date RIag 28,2000 - Orlando District Fire Complex

                                               Public                Individual         Hazard                  Total
                                              Assistance              & Family         Mitigation              Disaster
                                               Grants                  Grants           Grants                 Grants

        Award Amounts

            Federal Share                           $1,837,683                    $0                 $0             $1,837,683

            Local Matchistate Share                  $787,578                     -
                                                                                  $0                 -
                                                                                                     $0              $787,578

        Total Award Amount                          $2,625,261                    $0                 $0             $2,625,261



        Source of Funds

            Federal Share

            Local MatcNState Share

        Total Source of Funds



        Application of Funds

            Federal Share                           $1,837,683                    $0                     $0         $1,837,683

            Local MatcNState Share                  $1,322,363                    -
                                                                                  $0                     $0         $1,322,363

        Total Application of Funds                  $3,160,046                    $0                     $0         $3,160,046




        Balance of Federal
        Funds On Hand *                                     $0                    $0                     $0                   $0




        Leon Sitead Company. P.C.                                       53

    -
                                                                                            ----
                                                                                            --
                                                                                           --        -   -      -
                                                                                                                -
                                                                                                                          -
-
                                                                             -     -   -        --
                                          Schedule of Source and Application of Funds                               Exhibit A-32
                                          Florida Division of Emergency Management
                                              Disaster Assistance Grant Programs
                                                         As of September 30,2002



        1                    Fire Suppressant 2302 - Declaration Date May 28,2000 - Bunnell Fire Complex

                                                 Public                Individual                 Hazard                   Total
                                                Assistance              & Family                 Mitigation               Disaster
                                                 Grants                  Grants                   Grants                  Grants

        Award Amounts

            Federal Share

            Local MatcWState Share

        Total Award Amount



        Source of Funds

            Federal Share

            Local MatcbiState Share

        Total Source of Funds



        Application of Funds

            Federal Share                             $556,922                          SO                          $0          $556,922

            Local MatcWState Share                    $220,422                          $0
                                                                                        -                           -
                                                                                                                    $0          $220,422

        Total Application of Funds                    $777,344                          $0                          $0          $777,344




        Balance of Federal
        Funds On Hand *




        Leon Snead Company. P.C.                                         54
                                                                                                  -           -   - -    --
                                                                                                                          - -          -
                                                                                                                                      --       - -
                                                                                                                                               -  -
-
    -
                 --
                - --        --   --   -
                                            -
                                            -
                                                -            - -   -          --   --   --   -    -                                        -
                                 Schedule of Source and Application of Funds                  Exhibit A-3 3
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                  As of September 30,2002



1                   Fire Suppressant 2303 - Declaration Date May 28,2000 - Waccasassa Fire Complex

                                         Public               Individual          Hazard              Total
                                        Assistance             & Family          Mitigation          Disaster
                                         Grants                 Grants            Grants             Grants

Award Amounts

    Federal Share

    Local MatcNState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds



Application of Funds

    Federal Share                             $1,696,437                    $0                $0         $1,696,437

    Local MatcNState Share                     $727,044                     $0
                                                                            -                 -
                                                                                              $0           $727,044

Total Application of Funds                    $2,423,481                    $0                $0         $2,423,481




Balance of Federal
Funds On Hand *                                       $0                    $0                $0                 $0




Leon Snead Company. P. C.                                        55
                                           Schedule of Source and Application of Funds                   Exhibit A-34
                                           Florida Division of Emergency Management
                                               Disaster Assistance Grant Programs
                                                            As of September 30, 2002



          I                   Fire Suppressant 2305 - Declaration Date June 2,2000 - Jacksonville Fire Complex

                                                    Public               Individual          Hazard               Total
                                                   Assistance             & Family          Mitigation           Disaster
                                                    Grants                 Grants            Grants              Grants

          Award Amounts
              Federal Share

              Local MatcNState Share

          Total Award Amount


          Source of Funds

              Federal Share

              Local MatcNState Share

          Total Source of Funds


          Application of Funds

              Federal Share                               $374,315                     $0                $0            $374,315

              Local MatcNState Share                      $160,421                     $0
                                                                                       -                 -
                                                                                                         $0            $160,421

          Total Application of Funds                      $534,736                     $0                $0            $534,736




          Balance of Federal
          Funds On Hand *                                       $0                     $0                $0                  $0




          Leon Snead Compaizy. P.C.                                         56

--
     -
     ~~


     --
                                Schedule of Source and Application of Funds                 Exhibit A-35
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                As of September 30,2002



I                   Fire Suppressant 2306 - Declaration Date June 5,2000 - Suwannee Fire Complex                1
                                        Public              Individual          Hazard              Total
                                       Assistance            & Family          Mitigation          Disaster
                                        Grants                Grants            Grants             Grants

Award Amounts

    Federal Share

    Local MatcWState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatcWState Share

Total Source of Funds



Application of Funds

    Federal Share                             $646,466                    $0                $0           $646,466

    Local MatcWState Share                    $277,057                    $0
                                                                          -                 -
                                                                                            $0           $277,057

Total Application of Funds                    $923,523                    $0                $0           $923,523




Balance of Federal
Funds On Hand *




Leon Snead Company. P. C.                                      57
                                                                                                                    ~        ~
                                                                                                                                 -   - -
                                                                                                                    --   ~   -   p         -~
                                                                                                                                           -
                                  Schedule of Source and Application of Funds                  Exhibit A-36
                                  Florida Division of Emergency Management
                                      Disaster Assistance Grant Programs
                                                   As of September 30,2002



I                       Fire Suppressant 2307 - Declaration Date June 9,2000 - Perry Fire Complex

                                          Public               Individual          Hazard             Total
                                         Assistance             & Family          Mitigation         Disaster
                                          Grants                 Grants            Grants            Grants

    Award Amounts

      Federal Share

      Local MatcWState Share

    Total Award Amount



    Source of Funds

      Federal Share

      Local MatcWState Share

    Total Source of Funds



    Application of Funds

      Federal Share                             $263,419                     $0                $0          $263,419

      Local MatchIState Share                   $1 12,894                    -
                                                                             $0                $0
                                                                                               -           $1 12.894

Total Application of Funds                      $376,313                     $0                $0          $376,313




    Balance of Federal
    Funds On Hand *                                    $0                    $0                $0                 $0




Leon S~zeadContpa~zy.P.C.                                         58
                                  Schedule of Source and Application of Funds                  Exhibit A-37
                                  Florida Division of Emergency Management
                                      Disaster Assistance Grant Programs
                                                   As of September 30,2002



I                   Fire Suppressant 2353 - Declaration Date February 18,2001 - Lakeland Fire Complex

                                           Public              Individual          Hazard                Total
                                          Assistance            & Family          Mitigation            Disaster
                                           Grants                Grants            Grants               Grants

Award Amounts

    Federal Share                              $2,762,537                    $0                $0           $2,762,537

    Local MatcWState Share                     $1.183.944                    -
                                                                             SO                -
                                                                                               $0           $1,183,944

Total Award Amount                             $3,946,481                    $0                $0           $3,946,481



Source of Funds

    Federal Share

    Local MatcMState Share

Total Source of Funds



Application of Funds

    Federal Share

    Local MatcWState Share                      $913,640                     $0
                                                                             -                 -
                                                                                               $0             $913,640

Total Application of Funds                     $3,613,680                    $0                $0           $3,613,680




Balance of Federal
Funds On Hand *
                                   Schedule of Source and Application of Funds                  Exhibit A-3 8
                                   Florida Division of Emergency Management
                                       Disaster Assistance Grant Programs
                                                    As of September 30,2002



     I              Fire Suppressant 2354 - Declaration Date February 19,2001 - Okeechobee Fire Complex

                                            Public              Individual          Hazard             Total
                                           Assistance           & Family           Mitigation         Disaster
                                            Grants                Grants            Grants            Grants

     Award Amounts

         Federal Share

         Local MatcWState Share

     Total Award Amount



     Source of Funds

         Federal Share

         Local MatcWState Share

     Total Source of Funds



     Application of Funds

         Federal Share                          $1,188,300                    $0                $0         $1,188,300

         Local MatcWState Share                  $662.571                     $0
                                                                              -                 -
                                                                                                $0          $662.571

     Total Application of Funds                 $1,850,871                    $0                $0         $1,850,871




     Balance of Federal
     Funds On Hand *                                    $0                    $0                $0                 $0




     Leoiz Stzead Company. P.C.                                    60

-
--
.-
                               Schedule of Source and Application of Funds                  Exhibit A-39
                               Florida Division of Emergency Management
                                   Disaster Assistance Grant Programs
                                                As of September 30,2002



I              Fire Suppressant 2355 - Declaration Date February 19,2001 - Clooshatchee Fire Coniplcx

                                        Public              Individual          Hazard              Total
                                       Assistance           & Family           Mitigation          Disaster
                                        Grants                Grants            Grants             Grants

Award Amounts

    Federal Share

    Local MatcNState Share

Total Award Amount


Source of Funds

    Federal Share

    Local Matchistate Share

Total Source of Funds



Application of Funds

    Federal Share                             $959,014                    $0                $0           $959,014

    Local Matchistate Share                   $33 1.961                   -
                                                                          $0                -
                                                                                            $0           $331.961

Total Application of Funds                  $1,290,975                    $0                $0          $1,290,975




Balance of Federal
Funds On Hand *                                     $0                    $0                $0                  $0
                                                 Schedule of Source and Application of Funds                                  Exhibit A-40
                                                 Florida Division of Emergency Management
                                                     Disaster Assistance Grant Programs
                                                                  As of September 30,2002



           I                         Fire Suppressant 2357 - Declaration Date April 17,2001 - Orlando Fire Complex                                      1
                                                         Public               Individual                       Hazard                  Total
                                                        Assistance             & Family                       Mitigation              Disaster
                                                         Grants                 Grants                         Grants                 Grants

               Award Amounts

                 Federal Share

                 Local Matchistate Share

           Total Award Amount



               Source of Funds

                Federal Share

                 Local Matchistate Share

           Total Source of Funds



           Application of Funds

                Federal Share                                  $880,499                              $0                       $0             $880,499

                Local MatcNState Share                         $168,634                              $0
                                                                                                     -                        -
                                                                                                                              $0             $168,634

           Total Application of Funds                         $1,049,133                             $0                       $0            $1,049,133




           Balance of Federal
           Funds On Hand *                                            $0                             $0                       $0                        $0




           Leoiz Sitead Company. P.C.                                            62

        - --                                                           --                                                    --                 -       - -        --

-
-
-
    -           pp
                  --
                  

                       - -   -   -
                                            -                                         --    -
                                                                                                --        -    -     -
                                                                                                                         -         --=---   -   -   -         --   - --
                                Schedule of Source and Application of Funds                  Exhibit A-41
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                 As of September 30,2002



1                   Fire Suppressant 2358 - Declaration Date April 18,2001 - Myakka Fire Complex                   I
                                        Public               Individual          Hazard             Total
                                       Assistance             & Family          Mitigation         Disaster
                                        Grants                 Grants            Grants            Grants

Award Amounts

    Federal Share

    Local MatcNState Share

Total Award Amount



Source of Funds

    Federal Share

    Local Matchistate Share

Total Source of Funds



Application of Funds

    Federal Share                            $1,323,470                    $0                $0        $1,323,470

    Local MatckiState Share                   $809,315                     -
                                                                           $0                -
                                                                                             $0             $809.3 15

Total Application of Funds                   $2,132,785                    $0                $0         $2,132,785




Balance of Federal
Funds On Hand *                                      $0                    $0                $0                    $0
                                 Schedule of Source and Application of Funds                  Exhibit A-42
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                  As of September 30,2002



I                   Fire Suppressant 2359 - Declaration Date April 25,2001 - Everglades Fire Complex               I
                                          Public              Individual          Hazard                Total
                                         Assistance            & Family          Mitigation            Disaster
                                          Grants                Grants            Grants               Grants

Award Amounts

    Federal Share

    Local Matchistate Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatchiState Share

Total Source of Funds



Application of Funds

    Federal Share                               $673,338                    $0                $0             $673,338

    Local Matchistate Share                      $29,208                    $0
                                                                            -                 -
                                                                                              $0              $29.208

Total Application of Funds                      $702,546                    $0                $0             $702,546




Balance of Federal
Funds On Hand *
                                Schedule of Source and Application of Funds                  Exhibit A-43
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                 As of September 30,2002



I                   Fire Suppressant 2360 - Declaration Date April 15,2001 - Chipola Fire Complex

                                        Public               Individual          Hazard              Total
                                       Assistance             & Family          Mitigation          Disaster
                                        Grants                 Grants            Grants             Grants

Award Amounts

    Federal Share

    Local MatcWState Share

Total Award Amount


Source of Funds

    Federal Share

    Local MatcWState Share

Total Source of Funds


A~plicationof Funds

    Federal Share                             $282,110                     $0                $0           $282,110

    Local MatcWState Share                    $120,904                     $0
                                                                           -                 -
                                                                                             $0           $120,904

Total Application of Funds                    $403,014                     $0                $0           $403,014




Balance of Federal
Funds On Hand *
                                Schedule of Source and Application of Funds                 Exhibit A-44
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                As of September 30,2002



I                   Fire Suppressant 2361 - Declaration Date May 16,2001 - Escambia Fire Complex

                                        Public               Individual         Hazard              Total
                                       Assistance            & Family          Mitigation          Disaster
                                        Grants                 Grants           Grants             Grants

Award Amounts

    Federal Share

    Local MatcMState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatchIState Share

Total Source of Funds



Application of Funds

    Federal Share                             $277,305                    $0                $0           $277,305

    Local MatchIState Share                    $74,843                    $0
                                                                          -                 -
                                                                                            $0             $74.843

Total Application of Funds                    $352,148                    $0                $0           $352,148




Balance of Federal
Funds On Hand *
                              Schedule of Source and Application of Funds                  Exhibit A-45
                              Florida Division of Emergency Management
                                  Disaster Assistance Grant Programs
                                               As of September 30,2002



I                   Fire Suppressant 2363 - Declaration Date May 23,2001 - Perry Fire Complex

                                       Public              Individual          Hazard             Total
                                      Assistance            & Family          Mitigation         Disaster
                                       Grants                Grants            Grants            Grants

Award Amounts

    Federal Share                          $5,053,796                    $0                $0        $5,053,796

    Local MatcWState Share                 $2,165,913                    -
                                                                         $0                -
                                                                                           $0        $2,165,913

Total Award Amount                         $7,219,709                    $0                $0        $7,219,709



Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds


Application of Funds

    Federal Share

    Local MatcWState Share                 $2,079.231                    $0
                                                                         -                 -
                                                                                           $0        $2,079,231

Total Application of Funds                 $7,133,027                    $0                $0         $7,133,027




Balance of Federal
Funds On Hand *




Leon Snead Coinpany. P.C.                                     67
                                      Schedule of Source and Application of Funds                            Exhibit A-46
                                      Florida Division of Emergency Management
                                          Disaster Assistance Grant Programs
                                                       As of September 30,2002



   I                   Emergency Declaration 3114 - Declaration Date July 8, 1991 - Tropical Stornl Albcrto

                                              Public                 Individual              Hazard                    Total
                                             Assistance               & Family              Mitigation                Disaster
                                              Grants                   Grants                Grants                   Grants

   Award Amounts

       Federal Share

       Local Matchistate Share

   Total Award Amount



   Source of Funds

       Federal Share

       Local MatchIState Share

   Total Source of Funds


   Application of Funds

       Federal Share                               $2,676,462                     $0                         $0           $2,676,462

       Local Matchistate Share                      $602,587                      $0
                                                                                  -                          -
                                                                                                             $0             $602,587

   Total Application of Funds                      $3,279,049                     $0                         $0           $3,279,049




   Balance of Federal
   Funds On Hand *                                         $0                     $0                         $0                   $0




   Leon Sizead Company. P.C.                                           68

----                                                                   --   ---        -   ---           -            -     - -        -   -       -
                --         -
                           -                                    --          -
                                                                            -                                     -        - --        .-      -       --
                                Schedule of Source and Application of Funds                  Exhibit A-47
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                 As of September 30,2002



1                   Emergency Declaration 31 16 - Declaration Date August 3,1995 - Hurricane Erin                I
                                        Public               Individual          Hazard              Total
                                       Assistance             & Family          Mitigation          Disaster
                                        Grants                 Grants            Grants             Grants

Award Amounts

    Federal Share

    Local MatchIState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds



Application of Funds

    Federal Share                            $4,225,030                    $0                $0         $4,225,030

    Local MatcNState Share                   $1,35 1,022                   -
                                                                           $0                $0
                                                                                             -          $1,351,022

Total Application of Funds                   $5,576,052                    $0                $0          $5,576,052




Balance of Federal
Funds On Hand *




Leon S~zeadCompany. P.C.                                        69
                               Schedule of Source and Application of Funds                 Exhibit A-48
                               Florida Division of Emergency Management
                                   Disaster Assistance Grant Programs
                                               As of September 30,2002



I              Emergency Declaration 3131 - Declaration Date September 25,1998 - Hurricane Georges               1
                                       Public              Individual          Hazard             Total
                                      Assistance            & Family          Mitigation         Disaster
                                       Grants                Grants            Grants            Grants

Award Amounts

    Federal Share                         $3 1,847,270                   $0                $0        $ 3 1,847,270

    Local MatcNState Share                $10,615,756                    -
                                                                         $0                -
                                                                                           $0        $10,615,756

Total Award Amount                        $42,463,026                    $0                $0        $42,463,026



Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds



Application of Funds

    Federal Share                         $3 1,670,085                   $0                $0        $3 1,670,085

    Local MatcNState Share                 $2,172,858                    -
                                                                         $0                -
                                                                                           $0          $2,172.858

Total Application of Funds                $33,842,943                    $0                $0         $33,842,943




Balance of Federal
Funds On Hand *                                    $0                    $0                $0                   $0
                                Schedule of Source and Application of Funds                     Exhibit A-49
                                Florida Division of Emergency Management
                                    Disaster Assistance Grant Programs
                                                  As of September 30,2002



I                         Emergencg Declaration 3139 - Declaration Date April 27, 1999 - Fire                      1
                                         Public               Individual          Hazard               Total
                                        Assistance             & Family          Mitigation           Disaster
                                         Grants                 Grants            Grants              Grants

Award Amounts

    Federal Share

    Local MatchState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatcWState Share

Total Source of Funds



A~plicationof Funds

    Federal Share                            $1 ,042,23 1                   $0                  $0        $1,042,23 1

    Local MatchIState Share                    $337,578                     $0
                                                                            -                   -
                                                                                                $0          $337,578

Total Application of Funds                   $1,379,809                     $0                  $0         $1,379,809




Balance of Federal
Funds On Hand *




Leorz Srzead Conzpany. P. C.                                     71
                              Schedule of Source and Application of Funds                  Exhibit A-50
                              Florida Division of Emergency Management
                                  Disaster Assistance Grant Programs
                                               As of September 30,2002



I               Emergency Declaration 3143 - Declaration Date September 14,1999 - Hurricane Floyd

                                       Public              Individual          Hazard                Total
                                      Assistance            & Family          Mitigation            Disaster
                                       Grants                Grants            Grants               Grants

Award Amounts

    Federal Share

    Local MatcNState Share

Total Award Amount


Source of Funds

    Federal Share

    Local MatcNState Share

Total Source of Funds



Application of Funds

    Federal Share                          $3,618,999                    $0                $0           $3,618,999

    Local MatcNState Share                  $582,527                     $0
                                                                         -                 -
                                                                                           $0             $582,527

Total Application of Funds                 $4,201,526                    $0                $0           $4,201,526




Balance of Federal
Funds On Hand *                                    $0                    $0                $0                   $0




Leon Snead Company. P. C.                                     72
                                 Schedule of Source and Application of Funds                   Exhibit A-5 1
                                 Florida Division of Emergency Management
                                     Disaster Assistance Grant Programs
                                                  As of September 30,2002



I                   Emergency Declaration 3150 - Declaration Date October 15,1999 - llurricane Irene                 I
                                          Public               Individual         Hazard                Total
                                         Assistance             & Family         Mitigation            Disaster
                                          Grants                 Grants           Grants               Grants

Award Amounts

    Federal Share

    Local MatcWState Share

Total Award Amount



Source of Funds

    Federal Share

    Local MatchJState Share

Total Source of Funds



Application of Funds

    Federal Share                               $547,528                    $0                $0             $547,528

    Local Matchistate Share                     $171,838                    -
                                                                            $0                !c$            $171.838

Total Application of Funds                      $719,366                    $0                $0               $719,366




Balance of Federal
Funds On Hand *                                       $0                    $0                 $0                    $0




Leon Snead Company. P. C.                                         73
FEMA                               Florida Division of Emergency Management
                                                               State of Florida




                                                             Exhibit B




             FLORIDA DIVISION OF EMERGENCY MANAGEMENT
                       MANAGEMENT COMMENTS




Leon Snead & Company, P.C.    74
                                                                       US. Department of Homeland Security
                                                                       Region IV
                                                                       3003 Chambfee Tucker Road
                                                                       Atlanta, GA 30341




                                                April 18,2005



MEMORANDUM:                    Gary J. Barard


FROM:
                         I   A c t i n g Regional Director

SUBJECT:                       Audit of the State of Florida Administration of
                               Disaster Assistance Funds
                                                                                                6-   p   '9-.


Thisisinresponse t a y ~ u L a u d i t d a t e h B u ~ ~ OThis
                                                           4 . audit reviewed the compliance with
the Robert T. Stafford Disaster Relief and Emergency Assistance Act, as amended and
applicable Federal regulations for the State of Florida.
                                                                                                                I - _




After a review of the audit findings, the below coordinated response with the State of Florida is
provided:

       a. Public Assistance:

               (1) The State of Florida provided a response to the following findings: Reporting
               total grants costs, managing obligations and expenditures for State Management
               Grants, payments to the Sub-grantees and monitoring projects and project
               closeouts.

               (2) A regional review of the State of Florida Public Assistance Program reveals
               that the State has documented changes implemented to improve the Public
               Regional Assistance Management procedures and correct areas of non-
               compliance. Concur with the States response and implementation of corrective
               actions and considers the Public Assistance findings resolved and closed.

       b. Mitigation:

               (1) A.2 Project Monitoring: Page 4 - From conclusions found on pages 10-13 of
               the original report. Securing prior approval for Walton County substitute
               properties for buy-out from FEMA as required by federal regulations, and
               .......Reimbursement of Holmes County for property buy-outs not approved by
               FEMA.
              (2) Point 5, Page 7; Recoup the unauthorized payments of $597,855 made to
              Walton and Holmes Counties.

              (3) Response: FEMA, Mitigation Division and the State will re-visit the issue of
              Walton and Holmes Counties buyouts. As stated in the States response, FEMA
              gave obligations for sole purposes of purchasing particular homes within these
              counties. Due to the level of substituting properties and so few homes being
              purchased, FEMA is unable to determine which properties were purchased. In
              this regard, FEMA is coordinating a formal request with the State for a final
              detailed list of properties actually purchased under these disasters and projects.
              This detailed list should include the disaster and project numbers associated with
              the acquisitions. This information will be fkrther reviewed against FEMA's
              CATEXed list of properties to hrther determine their eligibility. After review, it
              will then be determined whether the recoupment of the $597,855 will be
              warranted.

              (4) It has been revealed, as stated by the State of Florida, that procedures have
              been implemented to monitor projects and disasters more closely by assigning one
              Project Manager to each project. Also, FEMA concurs with the new procedures
              implemented to maintain accurate accounts of management cost funds and to
              lessen the opportunities for excessive drawdowns.

              (5) The States financial and mitigation staff have established monthly meetings to
              discuss actual expenses associated with Mitigation activity. FEMA will more
              closely monitor this process on a quarterly basis to ensure these meetings
              continue.

       c. Also see attached annotated report from the State of Florida with detailed comments.

Should additional information be required, please advise George Yeanvood at (770) 220-5335.
                                                                      U.S. Department of Homeland Security
                                                                      P.egion IV
                                                                      3 003 Chamblee Tucker Road
                                                                      Atlanta, Ga 30341




                                      March 25,2005


The Federal Emergency Management Agency (FEMA), Region IVYMitigation Division
offer the following comments in response to the audit performed by Leon Snead &
Company and subsequently responded to by the State of Florida.

A.2 Project Monitoring:
Page 4 - From conclusions found on pages 10-13 of the original report. Securing prior
approval for Walton County substitute properties for buy-out from FEMA as required by
federal regulations, and ...Reimbursement of Holmes County for property buy-outs not
approved by FEMA.

Point 5, Page 7:Recoup the unauthorized payments of $597,855 made to Walton and
Holmes Counties.

Response:
FEMA, Mitigation Division and the State need to re-visit the issue of Walton and Holmes
Counties buyouts. As stated in the States response, FEMA gave obligations for sole
purposes of purchasing particular homes within these counties. Due to the level of
substituting properties and so few homes being purchased, FEMA is unable to determine
which properties were purchased. In this regard, FEMA will request formally from the
State a final detailed list of properties actually purchased under these disasters and
projects. This detailed list should include the disaster and project number the acquisitions
are associated with. This information will be further reviewed against FEMA's
CATEXed list of properties to further determine their eligibility. After review, it will
then be determined whether or not the recoupment of the $597,855 will be warranted.

It has been concluded, that the State of Florida, as stated, as implemented procedures to
monitor projects and disasters more closely by assigning one project manager to each
project should prevent this situation in the future. Also, FEMA concurs the new process
implemented to maintain accurate accounts of management cost funds should lessen the
opportunities for excessive drawdowns.

The States financial and mitigation staff has agreed to meet on a monthly basis to discuss
actual expenses associated with Mitigation activity. FEMA will monitor on a quarterly
basis, to ensure these meetings continue.
                                                                   U.S.Department of Homeland Security
                                                                   Region IV
                                                                   3003 Chamblee Tucker Road
                                                                   Atlanta, Ga 30341




                                            March 24,2005



MEMORANDUM:           George Yearwood
                                 tant to the Regional Director



                          v
FROM:
                      Infra truc   e Support Branch

SUBJECT:              Audit ofthe State of Florida Administration of
                      Disaster Assistance Funds

This Memorandum is in response to the Ofice of Inspector General audit dated August 5,
2004, which reviewed the compliance with the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, as amended and applicable Federal regulations for the State
of Florida. The State of Florida Public Assistance provided a response to following
findings:

       Reporting total grants costs
       Managing obligations and expenditures for State Management Grants
       Payments to the Sub-grantees
       Monitoring projects and project closeouts.

After review of the State of Florida Public Assistance Program information provided, the
State has documented changes that have been implemented to improve the Public, Region
IV Assistance Management procedures and correct area of non-compliance, FEMA
Public Assistance Program concurs with the State of Florida's response and
implementation of corrective actions and considers the Public Assistance findings
resolved and closed.
                                                                    S T A T E OF FLORIDA
              DEPARTMENT OF COMMUNITY AFFAIRS
                                     "Dedicated to making Florida a better place to call home"
              JEB BUSH                                                                                                  THADDEUS L. COHEN, AIA
              Governor                                                                                                                 secretary



                                                                          March 15,2005


              Ms. Mary Lynne Miller
              Acting Regional Director
              Department of Homeland Security
              FEMA Region IV
              3003 Chamblee Tucker Road                                                      AFFAIRS
              Atlanta, Georgia 30341

                          Re:        Federal Audit - State of Horida
                                     Compliance with Robert T. Stafford Act

              Dear Ms. Miller:

                      Please find attached the Florida Department of Community Affairs' Division of Emergency
              Management's response to the audit performed by the Department of Homeland Security, under contract
              to Leon Snead & Company. The audit was conducted to document the State's compliance with the
              Robert T. Stafford Disaster Relief and Emergency Assistance Act and applicable federal regulations.

                       In the body of our response, we have also provided you with a description of the corrective
              actions taken to address the audit recommendations and findings.

                     If you have any questions or need additional information regarding this matter, please contact
              Frank Koutnik, Chief, Bureau of Recovery and Mitigation.

                                                                                Respectfully,




              WCFIfk
                                                                                  w
                                                                                W. Crai    ug ,Dir ctor
                                                                                Division oflmergency Management



              Attachments (3)




                2 5 5 5 S H U M A R D OAK BOULEVARD           TALLAHASSEE, FLORIDA 32399-2100
                     Phone: 850.488.8466lSuncom 278.8466          FAX: 850.921.0781/Suncorn 291.0781
                                        Internet address: htt~://www.dca.state.fl.us
              CRlTlCAL STATE CONCERN FIEID OFflCE        COMMUNITY PLANNING           EMERGENCY MANAGEMENT          HOUSING & COMMUNlTY DEVELOPMENT
                2796 Overseas H~ghway.Su~te212           2555 Shumard Oak Boulevard   2555 Shumard Oak Boulevard    2555 Shurnard Oak Boulevard
                Marathon. FL 33050-2227                  Tallahassee, FL 323942100    Tallahassee, FL 323942100    T-
                                                                                                                   - a l l w e e , FL 323942100 -     -   --

         --l30-240-                -             -
                                                  - --   f%fA 488-2356                fSSOl3%!?3969-
--   -
FINDINGS AND RECOMMENDATIONS TO DEPARTMENT OF HOMELAND
SECURITY AUDIT OF THE FLORIDA DEPARTMENT OF COMMUNITY
AFFAIRS, DIVISION OF EMERGENCY MANAGEMENT'S COMPLIANCE
WITH TKE ROBERT T. STAFFORD ACT

Executive Summary
We take exception with the following statement as written under Program Management:

     "Management controls over public assistance projects by the Grantee were
     insrcfficient to ensure that payments to sub-grantees were made in accordance
     with Federal regulations.. ."

 This is a broad statement and unfairly categorizes Florida's Public Assistance (PA)
Program in its entirety as being insufficient. This audit reviewed 12 disasters totaling
over $2.6 billion in obligations. The audit revealed areas where the State needs to make
minimal improvements in the management controls of the PA program. This statement
above would lead one to believe the State mismanaged the entire PA program, which was
not the fmding of the audit. As discussed at the exit interview on February 10,2005 in
the Orlando Disaster Field Office, we would prefer you reflect on the positive efforts of
the PA program in its management of a multi-billion dollar program, and that language
be substituted for the above that recognizes the State is in need of adjustments made to its
management procedures tofilly accommodate all federal regulations. As written, we
believe it portrays an incorrect assessment of the entire Florida PA Program.

Also, the following statement in the Executive Summary does not reflect a correct
finding, as written:

      "Better management controls were needed to ensure grant funds were expended
     for their intended purposes. Wefound that about $595,000 was expended for
     items not approved by FEMA"

As was discussed at the February 10,2005 exit interview with DHS and Leon Snead and
Company staff, the state had verbal approval from FEMA to make the changes that were
made in the Hazard Mitigation buy out program. Our fault was not documenting the
approval in writing from FEMA staff, and not formally changing the scope of work to
reflect these agreed upon changes. Therefore, we believe the above statement focuses on
the wrong issue. The audit should be directing the state to better document all
agreements made with FEMA in writing to ensure a suficient audit trail, and make all
necessary changes to an approved scope of work to reject said changes. As written, one
would be lead to believe the State mismanaged these funds for non-approved activities,
which is a serious charge not supported by the facts.
A . l Program Management

The Director, FEMA Region IV, should require the Grantee to:

     1. Emphasize to its grants manager the importance of following existing payment
     procedures and contract requirements with sub-grantees to ensure that all
     reimbursements are supported with sufficient documentation.

This was an area that was identified as in need of improvement by the State, and
procedures were implemented in hvo software programs to ensure compliance. First,
preset checkpoints were established in Florida PAPERS for the pre-2004 disasters
including a Quality Control (QC) checkpoint. The purpose of the QC checkpoint is to
ensure all payment and contract processes are followed. Florida PAPERS is our
electronic signature and data management software that removes much of the paper from
the PA process, and instead manages all processes electronically, making it much easier
to ensure full compliance with all federal and state requirements.

For the 2004 Hurricanes, www.FloridaPA.org was established to preclude payment
without a signed contract or with insufficient documentation. The "Floridapa" portal is a
much improved use of the basic premise of Florida PAPERS, with a more robust protocol
for ensuring all payment and contract requirements are managed electronically, and
correctly.

Additionally the State Public Assistance program has been revised to duplicate the
FEMA procedure of assigning Public Assistance Coordinators (PACs) to be responsible
for monitoring a number of sub-grantees in a geographic area as a single point of contact.
This monitoring will be reviewed by a supervisor.

     2. Determine if the three sub-grantees have support to demonstrate that the $13.8
     million disbursed without required certt~cationsare used timely and for
     authorizedpurposes, and obtain refunds of federal funds if appropriate.

FENA-3131-EM-FL, Miami-Dade County, $5.1 million: Every Large Project, except
one, was 100%complete when written, and the other one was 99% complete when
written. Final Inspection reports were prepared for all Large Projects for this applicant,
with a net overrun. See Attachment 1, which is the annotated P.4. There was no chance
of premature payment or interest earned for Large Projects for this applicant in this
disaster.

FEMA-1306-DR-FL, Miami-Dade County, $7.2 million: This question appears to be
from Payment Nos. 13 (and 14 state share). The amount asked by the applicant on the
Request for Reirr~bwirsementfor this payment was less than the payment processed. A
letter will be prepared to the County to request they return any interest earned on this
advance. For future reference, Flor-idapa.org will not let this happen now as payments can
not exceed the amount requested up to the eligible amount and can not exceed that
amount.
Florida Department of Business and Professional Regulation, FEMA-0955-DR-FL,
$1.3 million: Only one Large Project was ever approved for this sub-grantee, DSR
#89858, for Category B - Emergency Work, and payment was not made until March 15,
1993, over 6.5 months after the disaster. There is no likelihood that Emergency Work by
this State Agency was not completed before this date. Additional information on this
applicant is in the archives, and not readily available, but can be retrieved from archives,
if required.

Manatee County, FEM-1195-DR-FL, $219,000: It is not possible to determine with
certainty which payment(s) the auditors are questioning, but is believed to be the fust
payment of Large Projects, since all other Large Projects payments were either Category
A only, or were made over three years after the declaration date when Requests for
Reimbursement were saved in Florida PAPERS. The first payment on Large Projects was
not made until over one year after the disaster was declared, five Large Projects were
involved. One was a partial payment on Category A; oie was Category B; one was for
Category D (See Attachment 2: Final Inspection Report); the other two were Category D,
sediment removal. Again there was no likelihood of the sub-grantee receiving funds
prematurely.

     3. Determine how the $1.8 million in advanced finding to the City of O p a - l o c h
     was expended and request a refund for any funds used for unauthorized
     purposes.

The City of Opa-Locka was seriously behind in receiving project transfer funds under the
PA program for FEMA-1345-DR-FL when payment was made on these projects. A letter
will be prepared to the City to request they return any interest earned on this advance.
Final Inspection Reports have been formulated for five of the eleven projects involved in
the advance of funds (PWs 375-0,376-0,377-0,378-0,393-0)to the City of Opa-Locka.
The use of funds received for these projects was verified to be for authorized purposes
and the projects closed. Final Inspection Requests along with documentation of eligible
costs have been provided by the applicant for four additional projects involved in the $1.8
million advance (PWs 373-0,379-0,380-0,385-0) and the final inspections are
scheduled for April 2005. The applicant is in the process of organizing documentation to
provide for the two remaining projects fmal inspections (PWs 381-0,382-0) and have
submitted a summary of documentation for each PW showing expenditure of the funds.

     4. Follow up with the four sub-grantees to determine if interest was earned on
     the advances and remit interest earned to FEMA pursuant to 44CFR 13.21.

Letters are being prepared for Miami-Dade County in FEMA-1306-DR-FL and the City
of Opa-Locka in FEMA-1345-DR-FL to request refund of any interest earned. Article
VIII.C.5 of the Disaster Relief Funding Agreement requires: "Subgrantee shall pay over
to the Grantee any interest earned on advances for remittance to the Federal Emergency
Management Agency as soon as practicable."
     5. Implement procedz~resto timely identi& obligations made by FEMA and
     ensure that state/subgrantee agreements are timely executed to facilitate
     payments to sub-grantees under small projects as soon as practicable after
     FEMA7sapproval of the projects.

For the 2004 Hurricanes, www.FloridaPA.org was established to identify approved
Project Worksheets (PWs) with a signed contract and place them in the Financial
Specialist Payment queue. Daily uploads show newly obligated projects and mark them
for payment until the total eligible amount is paid. Both obligated P.2s and executed
Agreements are uploaded into www.FloridaPA.org, where they are automatically
matched, and listed in the Financial Specialist's payment queue. This queue is visible to
all PA staff for follow-up on payments not processed. FloridaPA.org also identifies
those applicants who have not returned their Agreements signed, and provides for a blast
e-mail reminding them that they need to return their Agreements to us signed. Until we
have an executed agreement on file it is impossible to make a payment to that applicant.

Additionally the State Public Assistance program has been revised to duplicate the
FEMA procedure of assigning PACs to be responsible for monitoring a number of sub-
grantees in a geographic area as a single point of contact. This monitoring will identify
approved PWs in pre-2004 disasters and will be reviewed by a supervisor.

A.2 Project Monitoring
From conclusions found on pages 10-13 of the report. Reply to recommendations
appearing on page 13 follow this section:

     Pg 10, Bullet 1: PA projectfiles for 19 of 28 completed large projects in Miami-
     Dade County, under Disaster Number 1306, did not includefinal inspection
     reports.

Miami-Dade County is not closed-out under FEMA- 1306-DR-FL,in fact final
inspections have taken place after the audit, and will continue to take place in the future
as all projects are completed. The Grantee confirms that all Final Inspections have been
completed prior to sending the applicant the Project Certification, P.4. This has not
occurred, therefore, there remains this check to ensure that all projects have received a
final inspection. It may be that ,the auditors only focused on the applicant Quarterly
Reports that shows the work as 100% complete, while the documentation is not yet
complete to support their claims.

   Pg 10, Bullet 2: Securing prior approval for Walton t?ounty substitute properties
   for buy-out from FEMA as required by federal regulations, and.       ..
   Page 11, Bullet 1: Reimbursement of Holmes Countyfor property buy-outs not
   approved by FEMA.
The State and FEMA reviewed and concurred on 12 properties for acquisition in Walton
County under DR-1249. The State received obligation from FEMA for these 12
properties, but only three of the properties were acquired. The Sub-grantee requested and
received permission from the State to substitute five additional properties. In addition,
the State and FEMA reviewed and concurred on 20 properties for acquisition in Holmes
County under DR-1195. The State received obligation from FEMA for these 20
properties, but only five of the properties were acquired. The Sub-grantee requested and
received permission from the State to substitute five additional properties and a mobile
home park (eight units) from their waiting list.

Staff has concluded that several undocumented conversations did occur with FEMA
Regional Staff to discuss these substitutions. We believed that based on these
conversations, we had in effect, permission to proceed. We did not pursue securing a
more formal approval from FEMA to substitute properties from the approved lists with
those from an existing waiting list that was generated as a result of the Presidential
declaration. Each of the properties acquired under FEMA-1195 and 1249 were on each
of the respective County's buy-out waiting list. T o ensure against future instances of
property substitutions without formal approval, the State has revised its Standard
Operation Guidelines and the State Hazard Mitigation Grant Program Administration
Plan to be consistent with FEMAYspolicy on performance periods and changes in Scope
of Work. Additionally, there was confusion created on our part through the assignment
of multiple project managers to this task. Now, a single Project Manager is assigned to
each project to eliminate the duplication of activities and provides a higher degree of
accountability for each project.

   Page 12, ~ u l l eI:t The State lacked a system and controls to properly monitor all
   projects funded under the 5% Initiatives

During this period of audit review, the Division had multiple managers of the 5%
initiatives, which created a =cult audit trail. All of the 5% initiatives were legitimate
projects, reviewed and approved by FEMA, and monitored by Division staff. Since this
time, the Division has assigned one Project Manager to monitor all 5% Initiatives projects
from obligation to completion to ensure all documentation is easily maintained and made
accessible. The Project Manager is responsible for developing project files, managing,
monitoring and closing-out of all existing and new 5% Initiative projects.

    Page 12, Bullet 2: Close out of an elevation project in Hernando County

The State requested close-out of a Hazard Mitigation Grant Program property elevation
project awarded to Hernando County funded under FEMA-1195. However, FEMA
informed the State that the project did not meet GrSFIP requirements for breakaway walls
or opening below the lowest floor for structures located in flood zones.

The State has revised its process for monitoring and documenting interim inspections for
all open projects. The State requested and received documentation from the Sub-grantee
that the structures met the standards of Hernando County's Local Flood Damage
Prevention Ordinance. Additionally, the State has revised its application review and
interim-inspection process to include consultation with the State's NFIP Office for
concurrence on all funded activities occurring in Special Flood Hazard Areas.

    Page 12, Bullet 3: Improper handling of a Broward County appeal under EM-
    3131
At issue was an appeal notification for Broward County, and its subsequent processing
with FEMA, Regional Director. The Grants Manager did not follow standard operating
procedures for the management of appeals, and was counseled as to the proper
procedures for the management of appeals. The Public Assistance program will assign
PACs to applicants and have supervisory review to preclude the failure to formally
forward appeals in accordance with 44CFR 206.206. The notes in the file (Attachment 3)
show that this issue was discussed with FEMA Public Assistance Official, Bob Mair, by
the State's Recovery Manager with confirmation that FEMA considered this work
ineligible. Today, all appeals are uploaded in FloridaPAPERS when received; they are
also listed on the Appeals spreadsheet. The State PACS will be responsible for ensuring
appeals from their assigned applicants are processed in a timely and correct manner.


A.2 Project Monitoring (Recommendations from Page 13)

The Director, FEMA Region IV, should require the Grantee to:

     I . Implement procedures to effectively monitor sub-grantee activities to ensure
     enforcement ofprograin requirements, the documentation of key monitoring
     activities and appeal processing actions, and the proper closeout of HM and PA
     projects.

As described in the response to the individual conclusions above the State has taken
proactive steps to ensure program requirements, documentation, appeals, and closeout
procedures have been put in place to ensure total compliance with all federal regulations.
Where appropriate, one program manager is assigned to an applicant to reduce any
confusion or duplication of effort. Appeals are now managed in Floridapa, and follow all
procedures for n ~ ~ c a t i o and
                                n s processing. Inappropriate management of an appeal
listed in the audit reflect the actions of one employee, and not the Public Assistance
Section as a whole. Hundreds of appeals have been managed since this time in the
appropriate manner. All staff have been retrained on the proper management of an
applicant appeal. Lastly, standard operating procedures have been updated to ensure no
substitutions on a scope of work can take place outside of a formal process, not verbal
agreements. Again, SOPShave been revised to ensure this will be followed.

     2. Develop personnel staffing procedures for the Public Assistance and Hazard
     Mitigation Programs that fa responsibility for overseeing a sub-grantee's
     activities to a single grant manager, and ensure that the assigned grants manager
     is fully informed for all snb-grantee activities related to the perspective program.
As described in the response to the individual conclusions above, this was an issue with
the management of the 5%HMGP initiative grants. To r e c m this, one grants manager
has been assigned to all 5% initiatives. On all other HMGP projects, there is one grants
manager assigned to each. Also, in the Public Assistance Section, each grants manager is
assigned a certain number of applicants to manage all of their project worksheets.

     3. Provide justification and support for changing the Hazard Mitigation projects'
     scope of w ork, including the basis for selecting the substituted properties that
     were acquired under the Hazard Mitigation projects.

A detailed description of the actions taken by the State in the situations cited in the audit
are found in the comments to the conclusions. In summary, the Sub-grantee asked the
State (Grantee) for permission to substitute a number of properties from the approved list
agreed upon by the State and FEMA, with those on the County's waiting list. Verbal
discussions with FEMA staff led the Grantee to believe we had permission to proceed.
This should have been followed up with a formal request to the Regional Director
requesting this scope change in writing. This did not happen, and the sub-grantee
proceeded with the work approved by the State. To ensure this will not happen again, the
State has revised its Standard Operation Guidelines and the State Hazard Mitigation
Grant Program Administration Plan to be consistent with FEMA's policy on performance
periods and changes in Scope of Work. Additionally, a single Project Manager is
assigned to each project to eliminate the duplication of activities and provides a higher
degree of accountability for each project.

     4. Implementprocedures to ensure that allfuture changes to the scope of work
     for Hazard Mitigation projects are approved in advance by FEMA.

As noted above, the State has revised its Standard Operation Guidelines and the State
Hazard Mitigation Grant Program Administration Plan to be consistent with FEMA's
policy on performance periods and changes in Scope of Work.

     5. Recoup the unauthorizedpayments of $597,855 made to Walton and Holmes
     Counties.

The Grantee believes that this work was secured by the sub-grantee in the appropriate
manner for work that was verbally approved by the State and FEMA, and was therefore
authorized work. The work was for mitigating structures that were susceptible to
flooding and were in the floodplain. The funds were expended properly for these
activities, and the State does not agree that they should be recouped from these counties
for the work performed.
B.1      Reporting Non-Federal Share of Program Cost
        1. The Grantee did not accurately report the non-Federal share of disaster costs
       in their Financial Status Report for the period ending September 31,2002. This
       was because the grantee did not systematically collect the local matching share of
      program outlays incurred by sub-grantees to facilitate the periodic preparation of
      financial status reports.

In some cases, the non-federal share was not appropriately represented on the SF 269.
Actions have been taken to ensure that all staff include the non-federal share on the SF
269.

B.2 Controls Over Drawdowns
The Director, FEMA Region IV, should require the Grantee to:

      I. Require the Grantee to implement sufficient internal controls to ensure that
      drawdowns of Federal funds do not exceed amounts obligatedfor state
      management grants.

 The State has implemented a new process in order to maintain accurate accounts of
management costs. Upon receipt of the management cost obligation, the Mitigation
section will enter the information from the obligation into the existing financial database
(Financial Emergency Response System) as a project. On a monthly basis, the
Department's Finance and Accounting section will provide a report of actual expenses to
the Mitigation Section. The financial database will be updated with the actual expenses
such that a balance report may be maintained. A copy of the balance report will be
provided to the Division's Finance and Logistics section for their review. On a quarterly
basis, the Mitigation Section will confer with the Division's Finance and Logistics'
section to determine if additional management cost funding is needed. Additionally, the
State is working with the Regional Office to address excessive draw downs by closing
out all open Management cost projects and requesting additionally unobligated funds that
remain in the respective disaster event.

      2. Require the Grantee to refund the federal funds improperly drawn down and
      used for state management grant purposes that exceed the FEMA amount
      obligated for such grants under the various disasters.

State staff has met with FEMA staff and jointly determined that instead of refunding the
funds which were improperly drawn down, the State would request closeout of current
management cost grants and request funding for expenditures which exceeded the
obligations.
B.3 Improper Use of State Management Grant Funds
The Director, FEMA Region IV, should require the Grantee to:

     1. Implement sufficient controls over expenditures allocable to FEMA funded
     activities to assure that expenses charged to a State Management Grant have
     been approved by FEMA.

 The State is now implementing a procedure which ensures that expenditures charged to
the state management grant are approved by FEMA. This procedure requires state staff
to review reports provided by Finance and Accounting which outline expenditures within
a grant and compare it to the management grant obligation provided by FEMA.

     2. Remove the duplicate charge of $2,900 from the state management grant for
     the Hazard Mitigation Program that has been funded under the statutory
     administrative cost allowance.

The current State of Florida Accounting system mandates that overtime costs initially be
recorded in the same cost identifier as regular salary costs. The appropriate Finance and
Accounting staff then moves the overtime charge according to the employee's funding
identifiers to the appropriate administrative costs allocation. This charge is not a
duplicate but was moved accordingly in the subsequent financial period to the appropriate
funding source.
